<html>
<title> - RUSSIAN AGRESSION IN EASTERN EUROPE: WHERE DOES PUTIN GO NEXT AFTER UKRAINE, GEORGIA, AND MOLDOVA?</title>
<body><pre>[Senate Hearing 114-130]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-130

 RUSSIAN AGGRESSION IN EASTERN EUROPE: WHERE DOES PUTIN GO NEXT AFTER 
                     UKRAINE, GEORGIA, AND MOLDOVA?

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON EUROPE AND REGIONAL
                          SECURITY COOPERATION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-882 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                         ------------          

              SUBCOMMITTEE ON EUROPE AND REGIONAL        
                      SECURITY COOPERATION        

                RON JOHNSON, Wisconsin, Chairman        

RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
JAMES E. RISCH, Idaho                CHRISTOPHER MURPHY, Connecticut
CORY GARDNER, Colorado               TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts

                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Blank, Stephen, Ph.D., senior fellow, American Foreign Policy 
  Council, Washington, DC........................................    13
    Prepared statement...........................................    14
Johnson, Hon. Ron, U.S. Senator From Wisconsin...................     1
    Prepared statement...........................................     2
Kasparov,Garry, chairman, Human Rights Foundation, New York, NY..    10
    Prepared statement...........................................    12
Pifer, Hon. Steven, director of the Arms Control and 
  Nonproliferation Initiative, the Brookings Institution, 
  Washington, DC.................................................    21
    Prepared statement...........................................    23
Saakashvili, Mikheil, former President of Georgia, and chairman, 
  International Advisory Council On Reforms of President of 
  Ukraine, Kiev, Ukraine.........................................     5
    Prepared statement...........................................     8
Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     4
    Prepared statement...........................................     5
Wilson, Damon, executive vice president, Atlantic Council, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18

              Additional Material Submitted for the Record

Photos of Russia's Invasion of Ukraine Submitted by Senator Ron 
  Johnson........................................................    59

                                 (iii)

  

 
  RUSSIAN AGRESSION IN EASTERN EUROPE: WHERE DOES PUTIN GO NEXT AFTER 
                     UKRAINE, GEORGIA, AND MOLDOVA?

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                           U.S. Senate,    
        Subcommittee on Europe and Regional
                              Security Cooperation,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
(chairman of the subcommittee) presiding.
    Present: Senators Johnson, Gardner, Shaheen, Murphy, and 
Kaine.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing is called to order. I want to 
start off by thanking all the witnesses for taking the time, 
traveling here, and preparing some thoughtful testimony. I also 
want to offer my condolences to all of those who knew Boris 
Nemtsov, who considered him a friend and comrade. A real 
tragedy happened a day, I think, after we noticed this hearing. 
It certainly was not one of the things I wanted to talk about, 
certainly nothing we contemplated.
    The purpose of this hearing is really to lay out a reality. 
It is to tell a story, and the story that needs to be told is 
what has become of Russia since Vladimir Putin has come to 
power. I am not going to tell the story. These gentlemen are 
going to be telling the story. Unless we understand the 
reality, unless we are willing to face the reality, unless we 
are willing to grapple with the reality, Vladimir Putin will 
continue his aggression, and it will not only destabilize 
Eastern Europe, it will destabilize the entire efforts of all 
those who want to seek peace and prosperity in the world.
    We have a couple of photographs that I want to highlight. 
Starting to my right is a picture of Boris Nemtsov, a very 
courageous man that I had the privilege of meeting in my 
office, a man who brought to my office a longer list of people 
who needed to be added to the Magnitsky list. Unfortunately in 
the next picture right behind Senator Gardner is a picture of 
Boris Nemtsov having been assassinated with the Kremlin in the 
background. Now, that would be somewhat similar to an 
assassination carried out on Constitution Avenue with the 
Capitol in the background.
    In my written opening statement, which I would ask to be 
entered into the record, we have laid out a timeline that 
starts with the fall of the Berlin Wall and then traces through 
the history. But in particular, I want people to pay attention 
to the history following the ascension of Mr. Putin to power in 
Russia. And I think probably the most powerful part of that 
timeline are the 29 assassinations of political figures, 29 
assassinations and murders that have never been adequately 
solved. I think people need to really contemplate that.
    Next picture, and we do not have the quote on there. This 
picture is actually a Ukrainian rebel talking about the number 
of Russian troops that he was thankful for that had entered 
Eastern Ukraine.
    The next picture is one of tragedy, as Malaysian Flight 
Number MH17 was shot down out of the sky on July 17 of 2014. 
Two hundred and ninety-eight innocent civilians were murdered. 
This shows a picture of that. And then we have scenes of the 
devastation in Eastern Ukraine.
    So that is a little pictorial history of the results of 
Vladimir Putin's aggression, and that is the story that needs 
to be told. That is the reality that needs to be faced.
    [The prepared statement of Senator Johnson follows:]

               Prepared Statement of Senator Ron Johnson

    Good morning and welcome.
    Today's hearing--the subcommittee's first hearing in the 114th 
Congress--is about documenting the history of Russian aggression in 
Ukraine and Eastern Europe and making sure that we, here in America, 
fully understand how dire the situation truly is. We need to face harsh 
reality and the fact that Ukraine needs our help in the form of 
defensive lethal military equipment, and it needs that help today.
    In March 2014, with hardly any pushback from the West, Crimea was 
annexed by Russia. Prime Minister Yatsenyuk came to America last year 
asking for our help in his country's battle to ensure its territorial 
integrity. We should have immediately provided a minimal level of 
defensive lethal aid that Ukraine so desperately wanted. We should have 
taken it a step further by asking, ``What else do you need?'' America 
needed to show resolve then, and it desperately needs to show 
leadership and strength now, not only in Ukraine but around the world.
    On December 5, 1994, the Budapest Memorandum was signed by Ukraine, 
Russia, the United States and the United Kingdom. In this agreement, 
Ukraine gave up the world's third-largest nuclear weapons stockpile in 
return for security assurances against threats or the use of force 
against its territorial integrity and political independence. Only 20 
years later, Russia has blatantly broken its promise by brazenly 
violating the territorial integrity of Ukraine.
    No one should be surprised by this behavior from Russian President 
Vladimir Putin. Under his leadership, Russian aggression against its 
neighbors has been building for years. The summarized timeline of 
Russia's destabilizing actions detailed below clearly demonstrates the 
threat Putin represents to neighboring democracies.
Date and Event
--Nov. 9, 1989: Berlin Wall falls.

--June 1991: Yeltsin wins first ever Russian presidential election.

--March 1997: Yeltsin appoints Boris Nemtsov first deputy Prime 
    Minister.

--July 1998: Putin is appointed head of the Russian Federal Security 
    Service (FSB).

--Nov. 20, 1998: Galina Starovoitova, a prominent liberal member of 
    Russia's Parliament, is shot to death in her St. Petersburg 
    apartment.

--Sept.-Oct. 1999: Putin sends Russian troops back into Chechnya in the 
    wake of a series of bomb explosions in Russia which are blamed on 
    Chechen extremists.

--Dec. 31, 1999: Yeltsin resigns, Putin becomes acting President.

--May 12, 2000: Igor Domnikov, a newspaper special-projects editor who 
    reported on corruption in the Russian oil industry, is hit in the 
    head and left lying unconscious in a pool of blood in his apartment 
    building.

--July 26, 2000: Sergey Novikov, owner of an independent radio station 
    that often criticized the provincial government, is shot four times 
    in his apartment building in Smolensk

--Sept. 21, 2000: Iskandar Khatloni, a reporter for the Tajik-language 
    service of Radio Free Europe/Radio Liberty, is attacked in his 
    apartment by an ax-wielding assailant.

--Oct. 3, 2000: Sergey Ivanov, director of an independent television 
    company, is shot five times in the head and chest in front of his 
    apartment building.

--Nov. 21, 2000: Adam Tepsurgayev, a cameraman who covered the Chechen 
    war, is shot dead.

--April 29, 2002: Valery Ivanov, editor-in-chief of a newspaper that 
    exposed government corruption, is shot eight times in the head at 
    point-blank range outside of his home.

--Aug. 21, 2002: Vladimir Golovlyov, a leader of the Liberal Russia 
    faction in the lower house of Parliament, is shot dead in Moscow.

--April 17, 2003: Sergei Yushenkov, a member of the lower house of 
    Russia's Parliament and an outspoken critic of Putin, is shot to 
    death outside of his Moscow apartment.

--June 2003: Russian Government cites financial reasons for axing last 
    remaining nationwide independent TV channel.

--July 3, 2003: Yuri Shchekochikhin, a vocal opposition journalist, 
    dies after falling ill with a mysterious disease.

--June 19, 2004: Nikolai Girenko, a prominent human rights defender, is 
    shot dead in his home in St. Petersburg.

--July 9, 2004: Paul Klebnikov, the first editor of Forbes magazine's 
    Russian edition, is shot dead as he leaves his Moscow office.

--Sept. 14, 2006: Andrei Kozlov, the First Deputy Chairman of Russia's 
    Central Bank who shut down banks accused of corruption, dies after 
    he was shot outside of a Moscow sports arena.

--Oct. 7, 2006: Anna Politkovskaya, a journalist and fierce critic of 
    the Kremlin, is shot and killed in her Moscow apartment building.

--Nov. 23, 2006: Alexander Litvinenko, a former KGB officer who was 
    critical of Putin, died after being poisoned with radioactive 
    polonium-210.

--March 2, 2007: Ivan Safronov, a journalist who embarrassed the 
    country's military establishment with a series of exclusive 
    stories, is found dead outside of his home.

--July 15, 2007: Marina Pisareva, deputy head of Bertelsmann AG's 
    Russian publishinghouse, is found stabbed to death in her home west 
    of Moscow.

--Aug. 2008: Russia invades Georgia; Medvedev signs an order 
    recognizing the independence of South Ossetia and Abkhazia, the two 
    breakaway regions in Georgia.

--Aug. 31, 2008: Magomed Yevloyev, owner of a popular news site that 
    reported on human rights, dies from a gunshot wound to the head 
    sustained while in police custody.

--Nov. 2008: Russian Parliament votes overwhelmingly in favor of a bill 
    that would extend the next President's term of office from 4 to 6 
    years.

--Jan. 19, 2009: Stanslav Markelov, a human rights lawyer, and 
    Anastasia Barburova, a young journalism student, are shot dead 
    midday on a busy Moscow street.

--April 2009: Vyacheslav Yaroshenko, an editor at the newspaper 
    Corruption and Crime, is beaten outside of his home; he passed away 
    from his injuries weeks later.

--July 15, 2009: Natalia Estemirova, a prominent human rights 
    journalist, is abducted from her home in Chechnya and shot dead.

--Nov. 16, 2009: Sergei Magnitsky, a lawyer who was jailed in revenge 
    for his uncovering of massive tax fraud, dies in prison; Olga 
    Kotovskaya, a TV journalist who critically reported on government 
    leaders, dies after falling from a window.

--Dec. 15, 2011: Gadzhimurad Kamalov, founder and publisher of a 
    Dagestani newspaper known for its editorial independence, is gunned 
    down outside of his office.

--March 23, 2013: Boris Berezovsky, once the richest of the so-called 
    oligarchs who dominated post-Soviet Russia and a close ally of 
    Yeltsin who helped install Putin as President, is mysteriously 
    found dead in his home outside of London.

--July 9, 2013: Akhmednabi Akhmednabiev, deputy chief editor of a 
    Dagestani newspaper, dies after sustaining multiple gunshot wounds.

--Dec. 2013-Feb. 2014: Amidst large proreform protests in Ukraine, 
    Putin offers to purchase $15 billion of Ukraine's debt and to 
    reduce the price of Russian gas supplies to Ukraine. Violent 
    protests flare, and by 2/22/2014 Yanukovych had fled Keiv.

--March 2014: President Putin signs a law formalizing Russia's takeover 
    of Crimea from Ukraine.

--May 11, 2014: Pro-Russian separatists in Donetsk and Luhansk declare 
    independence after unrecognized referendums.

--July 17, 2014: Malaysian flight MH17 is shot down and crashes near 
    the town of Torez in Ukraine's Donetsk region; 298 people die.

--July 31, 2014: Timur Kuashev, a journalist critical of Russian policy 
    in Ukraine, goes missing and is later found dead.

--Sept. 5, 2014: Ukraine and pro-Russian rebels sign a truce in Minsk.

--Nov. 5, 2014: Alexei Devotchenko, a popular Russian actor and 
    opposition activist, dies in unclear circumstances.

--Jan. 24, 2015: Russian-backed rebels launch an offensive in Mariupol, 
    Ukraine, killing 30 people and wounding 102 others.

--Feb. 11-12, 2015: Germany and France broker Minsk II cease-fire 
    between Russia and Ukraine.

--Feb. 19, 2015: Ukrainian soldiers retreat from Debaltseve after 13 
    are killed and 157 wounded.

--Feb. 27, 2015: Boris Nemtsov, a prominent critic of Putin's war in 
    Ukraine and a former Deputy Prime Minister under Yeltsin, is shot 
    in the back four times by an unidentified attacker in a car as he 
    crossed a bridge near the Kremlin.

    Providing military equipment to Ukraine is not the only answer, but 
it is a necessary part of the answer. Ukraine needs economic and 
governance reforms, but those can succeed only in a peaceful and 
independent nation.
    We all heard President Poroshenko address a joint session of 
Congress on September 18, 2014, and plainly state that his country 
needs more military equipment. ``Blankets and night-vision goggles are 
important,'' he said, ``but one cannot win a war with blankets.'' He 
went on to say, ``Just like Israel, Ukraine has the right to defend her 
territory--and it will do so, with all the courage of her heart and 
dedication of her soul!'' The Ukrainian people are willing to fight for 
their country. They just need a little help from their allies in 
America.
    I look forward to hearing from our witnesses today on Russian 
aggression in Eastern Europe and learning how we can best support our 
allies in confronting this regional destabilization.
    Thank you. I look forward to your testimony.

    Again, I want to thank the witnesses, and I will turn it 
over to Senator Shaheen for her opening comments.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman, and 
thank you for your focus and work to bring this hearing 
together today. I want to echo your comments about the tragic 
killing of Boris Nemtsov. He was a tireless voice for all 
Russians and a firm believer in a bright future for the 
country. And even as we focus here on the Russian Federation's 
outward aggression, clearly we cannot ignore the repression 
that is happening inside Russia.
    In the interest of time, I will submit my full statement 
for the record, and just want to end by welcoming all of our 
witnesses here today, and it is nice to have former President 
Saakashvili back with this committee today. And I look forward 
to hearing what all of you have to say and your thoughts about 
what more we can be doing to support the people of Ukraine.
    Thank you.
    [The prepared statement of Senator Shaheen follows:]

              Prepared Statement of Senator Jeanne Shaheen

    Thank you, Chairman Johnson. I want to commend you for your focus 
and leadership on this critical foreign policy issue and for your work 
to bring this hearing together today before the Subcommittee on Europe. 
I also want to echo your comments about the tragic killing of Boris 
Nemtsov, who was a tireless voice for all Russians and a firm believer 
in a bright future for that country. Even as we focus here today on the 
Russia Federation's outward aggression, clearly, we cannot ignore the 
repression inside Russian today under President Putin. The Russian 
people and the world demand a transparent investigation into Mr. 
Nemtsov's murder and I sincerely hope we will see that. Russia's 
refusal to allow some foreign officials to attend his funeral was not a 
promising sign.
    As the Chairman noted, we have five impressive witnesses here to 
help us better understand Russia's pattern of interference and 
aggression in Eastern Europe and think through appropriate responses. I 
join the chairman in thanking you for appearing here today.
    Today, we see a Russian foreign policy that flouts international 
norms and responsibilities, a foreign policy that is based on 
political, economic, and even military intimidation and aggression. 
Airspace violations, disinformation and propaganda campaigns, energy 
corruption and trade restrictions are just a few of the tools used by 
Moscow.
    Through Operation Atlantic Resolve and, the European Reassurance 
Initiative, the U.S. is already providing substantial support to our 
European partners, including Ukraine. That support should continue. In 
fact, it should be increased. We should consistently look for 
opportunities to assist our friends in Ukraine, Moldova, and Georgia, 
including helping them strengthen their political systems and economies 
through reform not for our benefit, but for the benefit of the people 
of those sovereign nations.
    Congress, and particularly this committee, has played a critical 
role in this effort. Just last December, Congress passed the Ukraine 
Freedom Support Act, which authorized the President to provide 
defensive military assistance to Ukraine and tighten economic sanctions 
on Russia. I hope the administration will make use of these 
authorities.
    I welcome your suggestions for what more we should be looking to do 
in Congress. Once again, thank you all for being here, and we look 
forward to hearing from each of you.

    Senator Johnson. Thank you, Senator Shaheen. We do have a 
vote that is going to be called, and I believe that what is 
going to happen with that vote is we are going to be sitting in 
our chairs. So what we will do is when that vote is called, we 
all will leave. We will put this hearing into recess, and we 
will come back because I do not want anybody to miss the 
testimony.
    But we will start off with President Saakashvili, former 
President of Georgia. He was the leader of Georgia from 2004 to 
2013. Recently, he was appointed by Ukrainian President 
Poroshenko to serve as chairman of the International Advisory 
Council on Reforms of the President of Ukraine. President 
Saakashvili?

STATEMENT OF MIKHEIL SAAKASHVILI, FORMER PRESIDENT OF GEORGIA, 
  AND CHAIRMAN, INTERNATIONAL ADVISORY COUNCIL ON REFORMS OF 
              PRESIDENT OF UKRAINE, KIEV, UKRAINE

    Mr. Saakashvili. Thank you, Senator. Thank you, Senator 
Johnson, thank you, Senator Shaheen, thank you, Senator 
Gardner, for this wonderful initiative. I want to thank you, 
the committee and subcommittee, for the invitation. Perhaps it 
is a little unorthodox to find the former President 
representing the interests of another nation before the U.S. 
Senate, but I think the distinguished members of this committee 
understand why I have gone from being President of one nation 
to helping the President of another.
    Ukraine and Georgia are on the front lines of the fight 
that may seem far away, but it is very much the fight that the 
American people and certainly the U.S. Congress understand more 
than anybody else in the world. This is not a fight about 
territory, about railway junctures, this or that town. This is 
a fight about principles, ideals, a way of life. This is a 
fight to determine whether we can escape from this curse of 
Soviet corrupt, cronyist, inefficient societies to being 
efficient democracies based on rule of law.
    Ukraine, and here is the story of a Budapest memorandum, 
which I have to remind the members of the committee, Ukraine 
gave up 1,800 warheads, one-third of the Soviet nuclear 
arsenal, to help secure peace in post-cold-war Europe. That was 
on the insistence of United States. The United States, among 
other big powers, was the guarantor of Ukraine's territorial 
integrity and sovereignty and their statehood based on the 
Ukraine giving up their weapons.
    Even more than that, on the insistence of this country and 
other great powers, the Ukraine has diminished its defense 
capabilities from having almost 1 million people serving in the 
military down to 120,000. Ukraine has neutralized the 120,000 
tons of ammunition and mines. They have incapacitated 6,000 
tanks for the last decades, and that was the time when they 
were complying with all their treaty obligations, while Russia 
was building up their military protection and propping up their 
muscles.
    And now here we are. Ukraine has given all this up hoping 
that they will be guaranteed peaceful future. Certainly they 
were not planning to attack anybody. And instead of giving up 
several thousand nuclear warheads, they are asking basically 
for several thousand antitank missiles to defend themselves and 
to check Russian tanks deep into their territory, as well as 
some of their weapons. And certainly, supporting Ukraine at 
this moment means, first of all, in addition to all the other 
support, also giving them means to defend their democracy, and 
to support them building a viable, strong Ukrainian democracy. 
And I think it is now imperative to U.S. security and the 
world's security.
    The old markers of Putin's reign are the gravestones of his 
critics and opponents. Every marker we can think of at this 
time is about increasing control of Russia or the Russian-
speaking world. In September 1999, as director of FSB, Putin 
sent troops into Chechnya. Three months later he was Acting 
President of Russia. In August 2008 he invaded my country, 
Georgia. Three months later the constitution was changed to 
assure that when Putin returned to the Presidency, it would be 
a 6-year term. Putin's military excursions are always the 
prelude to the centralization of his personal power. This has 
made Russia more unpredictable and Europe and the United States 
less secure.
    One year ago as the corrupt regime of Yanukovych fell, 
Russian forces moved into Crimea, then Ukraine, then there was 
downing of a passenger jet, as you rightly pointed out, 
Senator. In September of last year, President Poroshenko 
addressed the Joint Session of the Congress, and we are 
grateful for this opportunity. And he also asked that Ukraine 
requires defensive assistance because if not given that, Russia 
will continue to establish facts on the ground that will give 
them stronger position in the kabuki of future negotiations, 
and basically in the killing of Ukraine democracy. I think what 
Russia is up to is seizing the whole southern flank of Ukraine, 
seizing most of the east, and then going after the government 
in Kiev, and killing the very idea of Ukraine democracy.
    After the war in 2008, a de facto ban on arms sales to 
Georgia was in place; as then, opponents were saying that 
providing Ukraine with lethal weapons would provoke Russia to 
escalate this conflict. But this appeasement ignores that 
Putin's aim is destabilize Ukrainian democracy. Adequate forces 
can stop aggression. In 1980, shoulder-fired Stinger missiles 
raised the cost to the Soviets in Afghanistan. That was the 
most decisive factor in the eventual defeat of the Soviet Army.
    That is why it is very important that while there also 
Europeans who are doing the negotiations, the United States 
should take the lead empowering regional actors like Poland, 
and joining with forces with supportive nations like U.K. and 
the Baltics to create a coalition to help to arm and train the 
Ukrainian Army.
    Ukraine must reform. I have focused on the case for arming 
Ukraine because without this there will not be a country to 
rebuild. But its success will equally be determined by fighting 
corruption, bringing the economy out of the shadows, increasing 
revenues to the state budget, and delivering better lives to 
the people of Ukraine. American support of all these efforts 
for the Ukrainian economy is critical, but time is short, and 
underneath the deception of the formation of war, the Russian 
plan is clear. They will seize more of the Ukraine. As I said, 
they will depose the government in Kiev if not checked in time. 
Only the swift and the immediate action of the United States 
Government to train and equip the Ukrainians can stop Putin's 
strategy to deconstruct the transatlantic architecture, to 
deconstruct the post-cold-war order.
    America and the free world won Second World War, and 
Americans won the First World War, and they won the cold war. 
What we are seeing is a dramatic situation where all these 
gains might be reversed. Georgia is a small country, but when 
we were invaded in 2008, after the failed deal with the 
Europeans, it took the United States and many members of this 
very Congress to stop them by starting the humanitarian 
military operation, which did not involve sending U.S. boots on 
the ground, but certainly involved sending strong signals to 
the Russians that they should stop.
    This war is much more complex than just war on the ground. 
This is a propaganda war. It is about controlling minds; and in 
this war we have yet to begin to fight back, to empower the 
Russian people to look at their own country and their own 
region, and to prevent encroachment of the Russian narrative 
into our politics and media. It was not just NATO army that saw 
the spread of communism. It was a collection of strong ideals 
with an army standing behind it. America, the origin of many of 
these ideals, was always further away from the front, and, 
thus, more able to resist the seeming appeal of realist moral 
compromise. The same must be true today. A democratic, secure 
Ukraine is the last nation between the revanchist Russia and 
America, and, overall, the free world.
    Thank you, Senator, for hearing my testimony.
    [The prepared statement of Mr. Saakashvili follows:]

               Prepared Statement of Mikheil Saakashvili

    Good afternoon. I want to thank the Foreign Relations Committee for 
the invitation to speak here today. Perhaps it is a bit unorthodox to 
find the President of one nation representing the interests of another 
before the United States Senate, but I think the distinguished members 
of this committee understand why I have gone from being a President to 
serving one.
    Ukraine and Georgia are on the front lines of a fight that may seem 
far away from here. But Ukraine is what stands between America and 
Russian aggression. Ukraine earned its right to aspire to Western 
integration when it gave up over 1,800 warheads--one-third of the 
Soviet nuclear arsenal--to help secure peace in post-cold-war Europe. 
Twice since, the people of Ukraine have taken to the streets to defend 
this right. Supporting Ukraine--including by giving them the arms they 
need to fight for their future and by supporting their efforts to build 
a viable, strong, Ukrainian democracy and state--is now imperative to 
American security.
    The road-markers of Putin's reign are the gravestones of his 
critics and opponents. His years in power can be measured by the 
rollback of federalization, rights, freedom, and opportunity. Every 
marker we can think of in his timeline is about increasing control of 
Russia and the Russian-speaking world.
    In September 1999, as director of the FSB, Putin sent troops into 
Chechnya. Three months later he was Acting President of Russia. In 
August 2008, he invaded Georgia. Three months later the constitution 
was changed to ensure that when Putin returned to the Presidency, it 
would be for a 6-year term.
    Putin's military excursions are always the prelude to the 
centralization of his personal power. This has made Russia more 
unpredictable, and Europe and the United States less secure in economic 
and military terms.
    We don't know yet what will follow the invasion of Ukraine. One 
year ago, as the corrupt regime of President Yanukovich fell, Russian 
forces moved into Crimea. Moscow later announced the annexation of the 
peninsula. Russian military and intelligence operatives stirred up 
unrest in the Donbass region of Ukraine, which grew into a full-blown 
war including the participation of tens of thousands of Russian regular 
forces. Russian involvement increased after the downing of a Malaysian 
passenger jet by Russian air defenses that had been illegally brought 
into Ukraine in August 2014.
    In September, President Poroshenko addressed a joint session of 
Congress with the request to provide Ukraine with defensive assistance. 
In bilateral talks with the U.S., Ukrainian officials have continuously 
submitted requests for assistance and defensive weapons. Ukraine has 
been provided some nonlethal assistance, including radars to help 
detect mortars, bulletproof vests, and some other basic aid and 
equipment.
    But what will strengthen Ukrainian defense is lethal weapons--
specifically, antitank weapons that can halt further Russian advance. 
When Russia knows there will be little cost to them to take the 
territory, they will take the territory. They will continue to 
establish facts on the ground that will give them a stronger position 
in the kabuki of future negotiations.
    The arguments for withholding lethal aid are ones Georgia knows 
well: after the war in 2008, a de facto ban on arms sales to Georgia 
was in place. We couldn't even buy spare parts for our American rifles.
    As then, opponents say that providing Ukraine with lethal weapons 
will provoke Russia to step up its military involvement and escalate 
the conflict. But this appeasement ignores that Putin's aim is to 
unseat the government in Kiev and fully destabilize Ukrainian 
democracy.
    But adequate force can stop aggression: in the 1980s, shoulder-
fired Stinger missiles raised the costs for the Soviets in Afghanistan 
so much that this was the single most decisive factor in the eventual 
defeat of the Soviet Army. As Putin's popularity soars post-Crimea, the 
one crack in his armor is the mounting, secret human cost of his war. 
To raise the cost for the Kremlin--on the front line and at home--
further advances have to come with the fear of increased casualties.
    The importance of maintaining a joint position with the Europeans 
is also cited frequently. But Ukraine has little reason, historic or 
contemporary, to hope for German support. The United States should take 
the lead, empowering regional actors like Poland and other neighbors of 
Ukraine, joining with supportive nations like the U.K. and the Baltics 
to create a coalition to arm and train the Ukrainian Army.
    Ukraine must reform. I have focused today on the case for arming 
Ukraine because without this, there won't be a country to rebuild. But 
this is not to say its success will not be equally determined by 
fighting corruption, bringing the economy out of the shadows, 
increasing revenue to the state budget, and delivering better lives to 
the people of Ukraine.
    American support of all those efforts, and support for the 
Ukrainian economy during the war, is critical. But time is short, and 
underneath the deception and the information war, the Russian plan 
could not be more transparent. They will seize more of the east and 
south of Ukraine; send defeated Ukrainian troops back to Kiev; and 
attempt to destabilize the social and economic situation enough that 
pressure mounts and the democratically elected President and Government 
of Ukraine collapse or are overthrown.
    Only the swift and immediate action of the U.S. Government to train 
and equip the Ukrainians, as well as providing them with economic 
assistance, can stop Putin's strategy to deconstruct Europe, the 
transatlantic architecture, and transatlantic aspirations.
    Putin is willing to fight in ways we are not. Georgia is a country 
of 4 million people--and Putin sent tens of thousands of troops to 
invade our country. Since 2008, Russia has spent well over a billion 
dollars propping up the budgets of Abkhazia and South Ossetia. In 2015, 
while the Russian state budget is being cut by 10 percent across the 
board, Russia's payments to South Ossetia have increased by 19 percent. 
Add to that the costs of military deployments to, and arrangements 
with, these regions. Add to that the costs of backing anti-European, 
xenophobic groups in Tbilisi to whittle away support for Euro-Atlantic 
integration under a government attempting rapprochement with an 
aggressive and bullying neighbor. Add to that the costs of the media 
and documentaries and reports Russia has funded to blame the 2008 war 
on Georgia and its NATO aspirations. The list goes on.
    This is what Putin is willing to commit to ensure Georgia will not 
have a future that Russia does not dictate. He did this only to ensure 
that NATO could not offer Georgia a concrete pathway to membership. He 
did this so his narrative at home is secure.
    And as Putin has made clear--Ukraine is a nearly divine cause for 
him. We understand only shadows of the billions of dollars he has spent 
to keep Ukraine in the ``Russian world.'' According to U.N., over 6,000 
people have been killed in the fighting in eastern Ukraine. Up to 20 
percent of the industrial capacity of Ukraine has been removed or 
destroyed. A million people have been displaced.
    In the past year, Russia has also backed political parties, heavy 
propaganda, and sharp economic pressure to erode support for Europe in 
Moldova, hoping to change the political landscape even before their 
territorial conquests in Ukraine bring the Russian Army closer to 
Moldova's door. And what Moldovans fear is that if Europe hasn't helped 
Ukraine--a far larger, richer, and more strategically important 
nation--Moldova will become a footnote of the regional conquest.
    The price Putin is willing to pay, and to exact, is higher than we 
want to imagine.
    In Georgia, in 2008, we fought because if we didn't fight for our 
sovereignty and our democracy and our independence, no one else ever 
would. It was, to be sure, an emotional choice--but also the rational 
one. We couldn't win a military war with Russia--but it is the 
ideological war that we believed needed to be fought, and won.
    Fighting for our beliefs made many uncomfortable. Ukraine fights 
now for the same reason, and its Western friends are no less 
uncomfortable with their war. But make no mistake: Putin attacks 
Ukraine to weaken Europe, and to weaken NATO. When he makes the 
calculation that the time is right, he will cross the Article 5 line, 
probably in ways that are not expected. While we deliberate about 
definitions--Russian or Russian-backed, vacation or invasion--Putin 
will be fighting, and winning, an ideological war against the only 
force that has ever been able to contain and turn back expansionist 
Russian exceptionalism.
    His war is a propaganda war. It is about controlling minds. And in 
that war, we have yet to begin to fight back to help empower the 
Russian people to look at their own country and their region--and to 
prevent the encroachment of the Russian narrative into our own politics 
and media.
    It was not a NATO army that stopped the spread of communism. It was 
a collection of strong ideals with an army standing behind it. America, 
the origin of many of these ideals, was always further away from the 
front, and thus more able to resist the seeming appeal of realist moral 
compromise. The same must be true today. A democratic, secure Ukraine 
is the last nation between revanchist Russia and America.

    Senator Johnson. Thank you, Mr. President. Do we have time?
    Voice. Votes just started.
    Senator Johnson. Okay. We will recess at this point in time 
and hopefully be back in about 10 to 15 minutes. So, again, I 
apologize for that, but, again, this is an important hearing, 
and we are looking forward to your testimony.
    Thank you. This hearing stands in recess.

[Recess.]

    Senator Johnson. This hearing is called back to order. Our 
next witness will be Mr. Garry Kasparov. He is the chairman of 
the International Council of the Human Rights Foundation. Mr. 
Kasparov is a Russian pro-democracy leader, global human rights 
activist, author, and former world chess champion.
    Mr. Kasparov.

STATEMENT OF GARRY KASPAROV, CHAIRMAN, HUMAN RIGHTS FOUNDATION, 
                          NEW YORK, NY

    Mr. Kasparov. My thanks to the subcommittee and to Senator 
Johnson for inviting me here today. It has been a very 
difficult last few days mourning the brutal murder of my long-
time friend and colleague, Boris Nemtsov, in front of the 
Kremlin last Friday night, while also wanting to honor his 
memory and his fight by pressing the case for ending the regime 
of Vladimir Putin in Russia.
    I have learned from painful experience that these first 
days after an atrocity are very important because people 
outside Russia quickly forget and move on. Boris was an 
outspoken critic of a police state that has no tolerance for 
critics. His imposing presence regularly embarrassed an 
increasingly totalitarian dictatorship that could not permit 
even the smallest amount of truth to leak out.
    His latest report was to be on the presence of Russian 
troops in Ukraine, fighting Putin's war against a fragile 
democratic state in Europe. Boris also actively promoted the 
Magnitsky Act, a piece of rare bipartisan 2012 legislation that 
brought sanctions against Russian officials for not a brutal 
murder, but that of anticorruption attorney Sergei Magnitsky in 
2009.
    Boris Nemtsov was killed because he could be killed. Putin 
and his elites believe that after 15 years in power, there is 
nothing they cannot do, no line they cannot cross. Their sense 
of impunity, combined with an atmosphere of hatred and violence 
and Putin's propaganda, has created in Russia a lethal 
combination. Boris was not the first victim of this deadly mix. 
Georgia, Ukraine, and the stability of the modern world order 
is also under attack. Putin must justify his grip on power 
somehow. With his oil- and gas-based economy failing, he is 
following the path of Soviet dictators before him: propaganda, 
division, and war.
    Enemies are needed so that Putin may protect Russians from 
them. Ukraine was always a tempting target, and the recent 
leaks have shown that an invasion plan existed even before the 
fall of Putin's puppet, Viktor Yanukovych. Inside Russia, 
independent journalists and opposition activists are portrayed 
as dangerous national traitors in language lifted directly from 
the Nazis.
    Of course, I feel deeply the loss of my friend, Boris 
Nemtsov, and the prosecution of others who dare to speak 
against Putin. But it is Ukraine and what it illustrates about 
Putin and his regime that are more consequent to today's 
hearing. Since Putin took power in 2000, one Western 
administration after another declined to confront him on human 
rights at home or even his increasing belligerence abroad. The 
timeline of Russian repression circulated here today does an 
excellent job of listing many of the worse moments of Putin's 
crackdown. But there could also be a parallel timeline of all 
the meetings, deals, and smiling photo ops the leaders of the 
free world took with Putin while these atrocities were taking 
place.
    The Western engagement policy that should have been 
abandoned as soon as Putin showed his true colors over a decade 
ago was continued at every turn, which emboldened Putin and 
delegitimized our opposition movement. Putin rebuilt the police 
state in Russia in full view of the outside world, and now he 
is confident enough of his power to attempt to export that 
police state abroad to Georgia, to Ukraine, to Moldova. Where 
next? He is testing NATO now, and he will test it further.
    Putin also provides a role model for the rest of the world 
dictators and thugs by proudly defying the superior forces of 
the free world. From Iran to Syria to Venezuela, Putin's Russia 
provides both materiel support and what I would call amoral 
support.
    Putin is not going away on his own. Ukraine is only his 
latest target. Ukraine must be defended, supported, and armed 
now. It may seem far away to you, but it is a front line of a 
war the United States and the rest of the free world is 
fighting whether it admits it or not. Sanctions are important, 
but it is obvious 6 months ago that they were not enough to 
deter Putin, and he must be deterred.
    Stop treating Putin like any other leader who can be 
negotiated with in good faith. Stop legitimizing his brutal 
regime at the expense of the Russian people. The opposition 
movement Boris and I believed in and that Boris died for should 
also be openly supported, the way the West championed the 
Soviet dissidents. Let the people of Russia know that they have 
allies abroad the way Ronald Reagan told us--all of us behind 
the Iron Curtain that he knew it was our leaders, not us, who 
were his enemies.
    Contrary to the widely circulated official polls, Putin 
does not enjoy broad public support in Russia, as was proved by 
hundreds of thousands of people mourning Boris in the street of 
Moscow. If you are truly popular, you can allow free media and 
free elections, and your critics are not gunned down in the 
streets. Putin's oligarch supporters must be forced to choose 
between giving him up and a doomed isolation. They cannot be 
allowed to continue to live like Trump and rule Stalin. The 
people of Russia want to be free, but defeating a globalized 
and energy-rich, heavily militarized dictatorship that has the 
tacit support of the free world is too much to ask.
    You cannot negotiate with cancer. Like a cancer, Putin and 
his elites must be cut out. He must be isolated and removed, 
for only when Putin is gone can Russia be a free, strong, and 
independent country Boris Nemtsov always dreamed it could be.
    Thank you.
    [The prepared statement of Mr. Kasparov follows:]

                  Prepared Statement of Garry Kasparov

    My thanks to the subcommittee and to Senator Johnson for inviting 
me here today. It has been a very difficult last few days, mourning the 
brutal murder of my friend and colleague Boris Nemtsov in front of the 
Kremlin last Friday night, while also wanting to honor his memory and 
his fight by pressing the case for ending the regime of Vladimir Putin 
in Russia. I have learned from painful experience that these first days 
after an atrocity are very important, because people outside of Russia 
quickly forget and move on.
    Boris was an outspoken critic of a police state that has no 
tolerance for critics. His imposing presence regularly embarrassed an 
increasingly totalitarian dictatorship that could not permit even the 
smallest amount of truth to leak out. His latest report was to be on 
the presence of Russian troops in Ukraine, fighting Putin's war against 
a fragile democratic state in Europe. Boris also actively promoted the 
Magnitsky Act, a piece of rare bipartisan 2012 legislation that brought 
sanctions against Russian officials for another brutal murder, that of 
anticorruption attorney Sergei Magnitsky in 2009.
    Boris Nemtsov was killed because he could be killed. Putin and his 
elites believe that after 15 years of power there is nothing they 
cannot do, no line they cannot cross. Their sense of impunity, combined 
with the atmosphere of hatred and violence Putin's propaganda has 
created in Russia, is a lethal combination.
    Boris was not the first victim of this deadly mix. Georgia, 
Ukraine, and the stability of the modern world order is also under 
attack. Putin must justify his grip on power somehow. With his oil and 
gas-based economy failing, he is following the path of so many 
dictators before him: propaganda, division, and war. Enemies are needed 
so that Putin may protect Russians from them. Ukraine was always a 
tempting target, and recent leaks have shown that an invasion plan 
existed even before the fall of Putin's puppet, Viktor Yanukovych. 
Inside Russia, independent journalists and opposition activists are 
portrayed as dangerous national traitors, in language lifted directly 
from the Nazis.
    Of course I feel deeply the loss of my friend Boris Nemtsov and the 
persecution of others who dare to speak against Putin. But Ukraine and 
what it illustrates about Putin and his regime that are more consequent 
to today's hearing. Since Putin took power in 2000, one Western 
administration after another declined to confront him on human rights 
at home or over his increasing belligerence abroad. The timeline of 
Russian repression circulated here today does an excellent job of 
listing many of the worst moments of Putin's crackdown. But there could 
also be a parallel timeline of all the meetings, deals, and smiling 
photo-ops the leaders of the free world took with Putin while these 
atrocities were taking place. The Western engagement policy that should 
have been abandoned as soon as Putin showed his true colors over a 
decade ago was continued at every turn, which emboldened Putin and 
delegitimized our opposition movement.
    Putin rebuilt a police state in Russia in full view of the outside 
world and now he is confident enough of his power to attempt to export 
that police state abroad. To Georgia, to Ukraine, to Moldova. Where 
next? He is testing NATO now and he will test it further. Putin also 
provides a role model for the rest of the world's dictators and thugs 
by proudly defying the superior forces of the free world. From Iran to 
Syria to Venezuela, Putin's Russia provides both material support and 
what I would call ``amoral support.''
    Putin is not going away on his own. Ukraine is only his latest 
target. Ukraine must be defended, supported, and armed now. It may seem 
far away to you, but it is the front line of a war the United States 
and the rest of the free world is fighting whether it admits it or not. 
Sanctions are important, but it was obvious 6 months ago they were not 
enough to deter Putin, and he must be deterred.
    Stop treating Putin like any other leader who can be negotiated 
with in good faith. Stop legitimizing his brutal regime at the expense 
of the Russian people. The opposition movement Boris and I believed in 
and that Boris died for should also be openly supported, the way the 
West championed the Soviet dissidents. Let the people of Russia know 
that they have allies abroad, the way Ronald Reagan told those of us 
behind the Iron Curtain that he knew it was our leaders, not us, who 
were his enemies. Contrary to the widely circulated official polls, 
Putin does not enjoy broad public support in Russia. If you are truly 
popular you can allow a free media and free elections--and your critics 
are not gunned down in the street.
    Putin's oligarch supporters must be forced to choose between giving 
him up and a doomed isolation. They cannot be allowed to continue to 
live like Trump and rule like Stalin. The people of Russia want to be 
free, but defeating a globalized and energy-rich dictatorship that has 
the tacit support of the free world is too much to ask. You cannot 
negotiate with cancer. Like a cancer, Putin and his elites must be cut 
out. He must be isolated and removed, for only when Putin is gone can 
Russia be the free, strong, and independent country Boris Nemtsov 
always dreamed it could be.

    Senator Johnson. Thank you, Mr. Kasparov.
    Our next witness is Dr. Stephen Blank. He is a senior 
fellow for Russia at the American Foreign Policy Council. He is 
an internationally known expert on Russia and the former Soviet 
Union, and is the author of over 1,000 publications.
    Dr. Blank.

  STATEMENT OF STEPHEN BLANK, PH.D., SENIOR FELLOW, AMERICAN 
             FOREIGN POLICY COUNCIL, WASHINGTON, DC

    Dr. Blank. Senator Johnson, it is a great honor to testify 
before your subcommittee with this exceptionally distinguished 
group of witnesses. Because my written statement deals with 
purely military issues, in my oral remarks I wish to talk about 
the broader strategic issues involved.
    Russia's invasion and occupation of Ukraine represent the 
greatest threat to European security in a generation, the most 
naked case of aggression since Saddam Hussein invaded Kuwait in 
1990, and arguably the most dangerous threat to international 
security and order today. It is the fruit of a long-developed 
plan whose origins can be traced back to 2005.
    Russia has several objectives here. Many have already 
noticed that in keeping with the rhythms of Russian history, 
there is the belief that a little short victorious war can 
buttress the regime at home around a program of Russian 
imperialism and state nationalism. Further, it is an axiom of 
Russian foreign policy that none of the post-Soviet states, 
including those of Eastern Europe, really possess genuine 
sovereignty and territorial integrity. Therefore, the treaties 
guaranteeing that sovereignty and territorial integrity are 
merely scraps of paper.
    This sentiment applies with particular force to Ukraine for 
it is clearly inconceivable to the Russian elite that Ukraine 
can follow a different trajectory than does Russia. Moreover, a 
Ukraine that looks westward is the greatest possible threat to 
the security of Putin's regime because it will infect Russia 
with the democratic virus. Indeed, the entire legitimacy of any 
Russian state is bound up with its being the true heir of 
Kievan Rus.
    If Ukraine rebels against or rejects Russia's trajectory, 
then the entire legitimacy of the Russian state is called into 
question. This is especially the case because Putin and his 
team believe that empire is the only acceptable form of a 
Russian state, and Russia must, therefore, be an empire if his 
autocracy and kleptocracy are to be preserved. For all these 
reasons, a democratic revolution in Ukraine is anathema to 
Moscow and a pretext for an invasion.
    Operationally, Moscow still intends to seize Mariupol, 
establish a land bridge to Crimea, and, if it could do so, 
establish as well as land bridge all the way to Moldova. Plans 
for this were already laid a year ago. Beyond destroying any 
possibility of an independent Ukraine, Moscow intends to 
overthrow the entire post-cold-war settlement of 1989 to 1991 
in Europe and globally, and to do so by systematically applying 
the synchronized instruments of pressure we now know as so-
called hybrid warfare. These policies predict more to any 
competent analyst, but unfortunately this administration and 
too many European governments do not take what happens in 
Russia seriously enough. Neither do these governments think 
Eastern Europe and the post-Soviet states are sufficiently 
important for us to have a real strategy regarding them.
    This Russia-first strategy lies at the root of the 
continuing and shameful Western failure to understand or 
grapple with Russia and its aggressions seriously enough or to 
provide assistance to Ukraine as needed. As administration 
officials candidly admit, there is ``an asymmetry of will'' or 
of importance whereby Ukraine is supposedly more important to 
Moscow than it is to us or to European governments, and this 
inhibits us helping Ukraine as needed.
    Indeed as reported on February 27 by the Wall Street 
Journal, the United States is slow rolling the provision of 
intelligence to Ukraine. Given the stakes involved for Ukraine, 
its neighbors, and partners, European and international 
security, this is an unacceptable policy. It undermines the 
credibility of NATO, of the United States, Europe, and beyond, 
and encourages aggression, and not only by Putin, and not only 
by Europe.
    Therefore, the importance of these hearings should be clear 
to everyone, and I welcome the opportunity to testify before 
the committee today.
    Thank you.
    [The prepared statement of Dr. Blank follows:]

                Prepared Statement of Dr. Stephen Blank

    Ukraine needs military help from abroad in terms of weapons, 
training, and finances to help sustain its government and economy in 
the face of Russian aggression. At a conference of the Potomac 
Institute, U.S. analysts and Ukrainian military leaders reported that 
the Ukrainian military continues to be severely disadvantaged by not 
being equipped with a list of the items that are becoming well known to 
those watching the current situation in eastern Ukraine: secure 
communications systems; antitank guided weapons with tandem warheads; 
counterbattery radars; UAVs for both reconnaissance and strike 
missions; and the ability to stream multiple intelligence sources into 
centralized command centers to get inside the ``decision loop'' of the 
Russian-backed forces.\1\
    Therefore, Ukraine needs and has requested these capabilities, 
secure communications equipment, countermortar or counterbattery 
weapons, antiair, and antitank weapons and missiles. Ukraine also 
clearly needs UAVs or weapons to use against Russian drones. It also 
needs weapons to counter Russian artillery fire by the use of 
intelligence capabilities to determine the source and point of origin 
of those fires and then take them out. Ukraine also needs to devise an 
effective, democratic command and control structure that allows 
competent officers to rise to positions of responsible command, to 
train proficient officers whom men will follow and who understand 
modern warfare, and create a basis for integrating volunteers into a 
regular army commanded and led by proficient officers committed to 
democracy. In American terms it needs both an Edwin Stanton and a 
George Marshall. It also needs to sustain patriotic morale to counter 
manifestations of draft dodging and to demonstrate to the world that it 
is reforming. Right now it needs weapons as outlined above urgently as 
well as financial assistance and a long-term plan of both energy and 
financial assistance and steady support for (as well as pressure from 
outside) to reform its government and economy.
    At the same time, there is little doubt that the White House and 
the NSC are holding up sending weapons to Ukraine at this point. But 
whatever their reasons are, there is little doubt that the Ukrainian 
Army will fight and with assistance can prevail over the rebels as long 
as Russia cannot operate freely there. Indeed, the fighting to date 
shows that only with substantial Russian help and the takeover of the 
operation by the Russian Army can the so-called rebels prevail in 
battle. If anything, this key fact justifies the provision of weapons 
and training to Ukraine as part of a broader strategy to wrest the 
strategic initiative away from Russia and give it to Ukraine and NATO.
    The signs of this dependence on the Russian Army are evident 
everywhere. According to the IHS consultancy firm, Ukrainian 
authorities and the Potomac Institute, there are currently 14,400 
Russian troops on Ukrainian territory backing up the 29,300 illegally 
armed formations of separatists in eastern Ukraine. These units are 
well equipped with the latest main battle tanks, armored personnel 
carriers and infantry fighting vehicles, plus hundreds of pieces of 
tube and rocket artillery. There are also 29,400 Russian troops in 
Crimea and 55,800 massed along the border with eastern Ukraine.\2\

--Russian units have made heavy use of electronic warfare (EW) and what 
    appear to be high-power microwave (HPM) systems to jam not only the 
    communications and reconnaissance assets of the Ukrainian Armed 
    Forces but to also disable the surveillance unmanned aerial 
    vehicles (UAVs) operated by cease-fire monitoring teams from the 
    Organization for Security and Co-operation in Europe (OSCE). 
    Russian EW teams have targeted the Schiebel Camcopter UAVs operated 
    by the monitors and ``melted the onboard electronics so that drones 
    just fly around uncontrolled in circles before they crash to the 
    ground,'' said one of the briefers at the conference. Russian EW, 
    communications and other units central to their military operations 
    are typically placed adjacent to kindergartens, hospitals, or 
    apartment buildings so that Ukrainian units are unable to launch 
    any strikes against them without causing unacceptable and horrific 
    collateral casualties.
--The war against Ukraine is not a ``new'' strategy for Moscow; the 
    Russian general staff has been preparing for Ukraine-type combat 
    operations since 1999. Indeed, the Ukrainian operation has been 
    planned by Moscow at least since 2005 and it is incomprehensible 
    why the administration could not, or would not, formulate an 
    assessment of what was happening in February 2014.\3\ This speaks 
    to our willingness and capability to assess Russian moves correctly 
    and it is not encouraging.
--The Russian military's Zapad 2013 exercise (the word ``Zapad'' 
    meaning ``West'' in Russian to denote that it was an operation 
    designed to practice operations against NATO) was a dress-rehearsal 
    for parts of the Ukraine campaign and future potential operations 
    against the Baltic States. The exercise involved 76,300 total 
    troops, 60 percent of which were drawn from the same Russian 
    Interior Ministry (MVD) units that were used in the Chechen 
    conflicts of the 1990s.
--Russia's information warfare campaign includes budgeting for the 
    state-run Russia Today network (more than USD300 million per annum) 
    and support for pro-Russian NGOs (USD100 million per annum).\4\

    Russian casualties are much higher than imagined and reports of the 
true number of dead, wounded, POW and/or MIAs would undermine Putin at 
home. Second, Russian tactics are rather crude, essentially being 
massive artillery and air shelling of enemy positions. Such tactics 
mandate a traditional enormous output of ammunition and artillery. The 
numbers of shells being expended periodically forces Russia to accept 
truces in order to replenish its forces in Ukraine who are in full 
command of this operation. There are an estimated 17-20,000 Russian 
forces in Ukraine brought together or even cannibalized from many 
different Russian military units in order to bring ground, air, 
antiair, and support functions into the theatre. In addition, there is 
a substantial reinforcement of the naval, air, and missile forces in 
the Crimea, including nuclear-capable or so called dual use weapons 
being brought to Crimea.
    We can learn the following lessons from this analysis. First, Putin 
cannot escalate the scale of conflict beyond present limits without 
antagonizing NATO further into a full-scale protracted war and he 
cannot afford that. He is also reputedly very afraid of media reports 
of the true extent of what evidently are sizable numbers of Russian 
casualties. For example, according to Ukrainian sources, at Debaltseve, 
1,300 Ukrainians and 4,500 Russians were killed.\5\ Why we are not 
publicizing Russian casualties escapes me. Third, there is every reason 
to believe that if NATO mobilized its resolve and capabilities to give 
Ukraine weapons and training as part of a comprehensive strategy that 
Ukraine's morale and capabilities would improve to the point of 
imposing much greater costs on Russia which is reaching the limit of 
its capabilities. Putin is already bringing troops form Central Asia 
and Siberia to Ukraine, indicating a manpower shortage and a lack of 
desire inside Russia to fight Ukraine. There are also many reports of 
disaffection within the Russian military. In other words, whereas NATO 
has hardly engaged, Russia is already feeling the pressure.
    Russian tactics and strategy have aimed to keep the fighting at a 
level under NATO's ``radar'' to avoid a too protracted war. It appears 
Putin aims to create his ``Novorossiia'' and present the EU with a fait 
accompli by mid-year to persuade a divided Europe to remove sanctions 
and thus escape the risk of a protracted war. We have it within our 
power, if we can find the will to do so, not just to impose costs on 
Putin but to regain the overall strategic initiative and take it away 
for him by helping Ukraine to defend itself. What is needed here and in 
Europe and Kiev is a comprehensive strategy that embraces not only 
military but also strong economic and informational means to thwart 
this effort to sustain Putin at home, destroy an independent Ukrainian 
state, overturn the post cold war status quo in Europe, undermine 
European integration, and hasten the rupture of the transatlantic 
alliance. Our continuing passivity allows this shameful conquest and 
the spread of state terrorism and criminality orchestrated by Moscow 
and its subalterns in Crimea and Ukraine to spread with impunity. We 
must realize that this is the most naked aggression since Saddam 
Hussein invaded Kuwait in 1990 and respond accordingly to what is the 
greatest threat not just to European security but to international 
order. For if we do not do so, others will be even more emboldened by 
our inaction and confusion as we have seen with ISIL in the Levant and 
we can see with China in the South China Sea, and with Iran in regard 
to state-sponsored terrorism and nuclear proliferation. Continued 
passivity invites more escalation, and not only by Putin, whereas 
soundly conceived and implemented resistance upholds not only our 
values but even more importantly, our interests, both in Europe and 
across the globe.

----------------
End Notes

    \1\ Reuben F. Johnson, ``Hybrid War Is Working,'' Jane's Defence 
Weekly, February 26, 2015.
    \2\ Ibid.
    \3\ Adam Entous, Julian E. Barnes, and Siobhan Gorman, ``U.S. 
Scurries to Shore Up Spying on Russia,'' Wall Street Journal, March 24, 
2014, www.wsjonline.com.
    \4\ Johnson.
    \5\ Conversations with Ukrainian officers and officials, 
Washington, DC, February 26, 2015.

    Senator Johnson. Thank you, Dr. Blank.
    Our next witness is Mr. Damon Wilson. He is executive vice 
president of the Atlantic Council. His areas of expertise 
include Central and Eastern Europe, NATO, and U.S. national 
security issues. From 2007 to 2009, Mr. Wilson served as 
special assistant to the President and senior director for 
European affairs at the National Security Council.
    Mr. Wilson.

 STATEMENT OF DAMON WILSON, EXECUTIVE VICE PRESIDENT, ATLANTIC 
                    COUNCIL, WASHINGTON, DC

    Mr. Wilson. Chairman Johnson, Ranking Member Shaheen, and 
members of the committee, President Putin today poses a direct 
threat to American interests and values. His war in Ukraine 
aims to tear up the post-cold-war order and undermine American 
credibility. If we fail to stop Putin in Ukraine, we will face 
a series of conflicts and crises in the months and years to 
come.
    At best, Putin may consolidate his autocratic grip at home 
and subjugate 75 million in Europe's East to a fate determined 
in Moscow. At worst, emboldened, Putin may be tempted to 
challenge a NATO ally directly. The choice we face, however, is 
not between fighting Russia or doing nothing. Rather, I believe 
doing nothing may lead to our fighting Russia. In this context, 
I would like to make five points.
    This crisis began long before Crimea. Indeed, Russia's 
annexation of Crimea was the natural outcome of a clear, 
consistent policy dating back years. I detail this record in my 
full testimony. Second, Putin will not stop until he encounters 
serious pushback. Third, only the United States can galvanize 
Europe and the international community around an effective 
strategy to deter Putin for the long term. Fourth, any strategy 
should urgently and decisively back Ukraine, as well as other 
vulnerable states with significant economic and military 
assistance in the short term, while keeping the door open to 
the European Union or NATO. And fifth, we should neither 
abandon the Russian people nor the vision that a democratic 
Russia one day can find its peaceful place within a Europe 
whole and free.
    Putin's strategy has been to use this crisis to consolidate 
his own hold at home through greater oppression of civil 
society and independent media even as he fuels nationalist 
fervor. He has created an environment of fear and intimidation 
fostering the circumstances that led to the assassination of 
Boris Nemtsov. Putin, of course, is also seeking to dominate 
his neighbors, to drain them of resources to fuel his 
kleptocracy, and to restore a sense of Russia's greatness in 
the only way a bully knows. He aims to prevent his neighbors 
from joining either NATO or the EU, achieving this through 
coercion when possible and by dismemberment and occupation when 
necessary.
    Ultimately Putin knows that the best check on his power is 
a united transatlantic community, and he has sought to divide 
Europe, undermining the resolve for sustained sanctions. But 
the most tempting objective for Putin is to call into question 
the credibility of NATO's Article 5 mutual defense commitment 
as doing so would effectively end NATO.
    A Russian move against an ally, such as a Baltic State, 
cannot be ruled out. Putin has demonstrated time and again that 
if he senses an opportunity to act he will, convinced that the 
West lacks the will or the ability to take decisive action. 
That is why today's situation is dangerous. We have seen 
repeatedly that Putin's objectives expand with success and 
contract with failure. This means that the best determinant of 
his action is Western action.
    There is a tendency, however, to argue that the Europeans 
should take the lead on Ukraine. After all, we have our hands 
full with ISIS and other global responsibilities. But the 
Ukraine crisis is a Russia crisis, and Russia is too big, too 
strong, and too scary for Europe to resolve this without us. 
Without U.S. leadership, Europe may feel forced to accommodate 
a revanchist Russia, and we have seen throughout history this 
is a dangerous formula.
    The United States has the ability to rally its allies and 
international partners around a comprehensive strategy that not 
only deters Putin's aggression, but avoids an unstable gray 
zone in Europe East. To do so, we should begin by articulating 
what we want to achieve. We should more decisively increase the 
cost to Russia, including by enacting sectorial sanctions and 
targeting Gazprom and Putin directly.
    The most effective response is Ukraine succeeding and 
becoming a modern European state, and yet Western assistance to 
date is modest. There is no governmentwide concerted effort to 
assist Ukraine. There is no response commensurate with how we 
react to support campaigns like Ebola or ISIS. The United 
States is uniquely positioned to assist Ukraine to defend 
itself and to raise the cost of further Russian military action 
against Ukraine. Putin, after all, has lied to his own people 
about Russian forces fighting in Ukraine. But by reassuring 
Putin that we will either not provide or greatly constrain our 
military and intelligence assistance, we signal to the Kremlin 
what Russia can get away with.
    Any assistance package should, therefore, be substantial, 
including antiarmor missiles, as well as intelligence support. 
Such a U.S. decision could unlock lethal military assistance 
from many of our allies. The U.S. Congress could also endorse a 
more substantial military presence along NATO's eastern flank, 
call for a halt to any further U.S. force withdrawals from 
Europe, and order a review of the U.S. force posture. Such a 
package could be designed to leverage U.S. commitment to 
European security to secure greater European commitments to 
defense investment.
    We should respond to aggression in Europe's East by 
consolidating Europe's South. This would mean inviting 
Montenegro to join NATO and intensifying efforts to build 
United States strategic partnerships with Serbia and Cyprus. We 
should harness America's energy prowess to increase global 
supply while support European efforts to create a European 
energy union that includes Ukraine. And we should be explicit 
about our intention to negotiate a transatlantic trade and 
investment partnership that is open to Ukraine, Moldova, and 
Georgia.
    As long as either KGB veterans retain their grip on the 
Kremlin or the nations in between NATO and Russia remain 
trapped in an insecure gray zone, we will face continued 
challenges and conflict.
    Thank you.
    [The prepared statement of Mr. Wilson follows:]

                 Prepared Statement of Damon M. Wilson

    Chairman Johnson, Ranking Member Shaheen, members of the committee, 
President Putin today poses a direct threat to American interests and 
values. His war in Ukraine and his effort to sow division among our 
allies are aimed at tearing up the post-cold-war order and undermining 
American credibility and influence.
    If we fail to stop Putin in Ukraine, we will face a series of 
conflicts and crises in the months and years to come.
    At best, Putin may consolidate his autocratic grip at home and 
subjugate 75 million people in Europe's East to a fate determined in 
Moscow. At worst, an emboldened Putin may be tempted to challenge a 
NATO ally directly, hoping to deal a decisive blow to the alliance.
    The choice we face, however, is not between fighting Russia or 
doing nothing. Rather, I believe doing nothing may lead to our fighting 
Russia.
    We are better than that. The United States can take the lead in 
galvanizing the transatlantic community behind a comprehensive 
strategy, including ensuring that a well-functioning and well-armed 
European Ukraine emerges from this crisis.
    In this context, I would like to make five points:

    (1) Russia's war in Ukraine today is the natural outcome of Putin's 
policies in recent years (and the lessons he drew from our successive 
lack of responses).
    (2) Putin will not stop until he encounters serious pushback.
    (3) Only the United States can galvanize Europe and the 
international community around an effective, comprehensive strategy to 
deter Putin for the long term.
    (4) Any strategy should urgently and decisively back Ukraine as 
well as other vulnerable states with significant economic and military 
assistance in the short term, while keeping the door open to the 
European Union (EU) or NATO for Ukraine, Georgia, and Moldova.
    (5) We should neither abandon the Russian people nor the vision 
that a democratic Russia one day can find its peaceful place within a 
Europe whole and free.

    This crisis began long before Crimea. Indeed, Russia's annexation 
of Crimea was the natural outcome of a clear, consistent policy dating 
back years. As confrontation replaced cooperation with the West as a 
source of legitimacy for the Kremlin, Russia meticulously laid the 
groundwork for what we are witnessing today. Former President Medvedev 
set out the doctrine of a ``privileged sphere of interests.'' Putin 
articulated the ``compatriots policy'' in which Russia claimed the 
right to defend the interests of Russian speakers outside its borders, 
and it began distributing passports to strengthen its claims.
    Russia undermined diplomatic efforts to resolve so-called frozen 
conflicts, and maintained Russian occupying forces as ``peacekeepers.'' 
At the last NATO--Russia summit in 2008, Putin ridiculed the idea of 
Ukraine as an independent state and questioned the status of Crimea in 
front of NATO leaders who had just failed to agree to begin preparing 
Ukraine for NATO. His creeping annexation of Georgia's breakaway 
regions prompted the Russian-Georgian War, consolidating his 
occupations. Russia both developed contingency plans and exercised 
seizing its neighbors' territory. Putin increasingly began wrapping all 
of his actions in a pseudo-ideology of Orthodox chauvinism.
    He countered EU outreach with his own Eurasian Economic Union 
premised on coercion rather than attraction. Putin's intimidation 
tactics led Armenia first to abandon its EU association bid before 
forcing former Ukrainian President Yanukovych's about-face. Russia 
tried and failed to use economic coercion and energy threats to sway 
Moldova.
    In the Ukraine crisis, Putin first probed with little green men to 
determine his freedom of maneuver in Crimea and, in the absence of 
resistance, brazenly seized the territory. The Kremlin then stoked the 
idea of a ``Russian Spring'' across southern and eastern Ukraine, 
creating the myth of Novorossiya and seeking to spark spontaneous 
revolts using ``political tourists'' from Russia. When that failed, 
Russia introduced Special Forces and intelligence operatives in 
Slavyansk, using the town as a base from which to seek to destabilize 
eastern Ukraine. And once Ukrainian forces gained their footing, nearly 
defeating the rebel forces, Russia opted for full-scale invasion. 
Today, the so-called separatists--former miners and farmers according 
to Putin--command greater quantities of the most advanced heavy 
weaponry than most European NATO nations.
    While Ukraine is ground zero in the current struggle, there is no 
doubt that Putin's sights are firmly fixed on the two tiny nations that 
have dared stand up to his bullying: Moldova and Georgia. Moscow 
attempted to sway Moldova's recent elections with massive support for 
new pro-Kremlin parties, is courting separatists, and is poised to 
destabilize the nation. Despite Georgia's efforts to normalize 
relations with Moscow, Russia has continued its creeping annexation of 
Georgia's breakaway regions of Abkhazia and South Ossetia.
    In the first instance, Putin has used this crisis to consolidate 
his own hold on at home, through greater repression of civil society 
and independent media even as he fuels a nationalist fervor. He has 
created an environment of fear and intimidation, at a minimum fostering 
the circumstances that led to the assassination of Boris Nemtsov. After 
all, the protests led by Nemtsov, much like the Maidan in Ukraine, pose 
a potentially existential threat to Putin's regime.
    Putin, of course, is also seeking to dominate his neighbors, to 
drain them of resources to fuel his kleptocracy, and to restore a sense 
of Russia's greatness in the only way a bully knows--intimidating the 
weak, closest to him.
    Furthermore, he aims to prevent any of his neighbors from joining 
either NATO or the EU, achieving this through coercion when possible 
and by dismemberment and occupation where necessary.
    Ultimately, Putin knows that the best check on his power is a 
united transatlantic community. Hence, he has sought to divide Europe, 
undermining the resolve for sustained sanctions. But the most tempting 
objective for Putin is to call into question the credibility of NATO's 
Article 5 mutual defense commitment, as doing so would effectively end 
both NATO and America's role as a great European power.
    A Russian move against an ally such as a Baltic State cannot be 
ruled out. Putin has demonstrated time and again that if he senses an 
opportunity to act, he will, convinced that the West lacks the will or 
ability to take decisive action. Debaltseve is only the latest case in 
point.
    This is why today's situation is so dangerous. Putin will not stop 
and this crisis will not end until he encounters serious pushback.
    We have seen repeatedly that Putin's objectives expand with success 
and contract with failure, or even the increased chance of failure. 
This means that the best determinant of his action is Western action.
    There's a tendency, however, in Washington to argue that the 
Europeans should take the lead on Ukraine--after all we have our hands 
full with ISIS and other global responsibilities. This approach fails 
to understand that only the United States can galvanize Europe and 
other members of the international community around a tough-minded 
comprehensive strategy to deter Putin.
    The Ukraine crisis is a Russia crisis after all. And Russia is too 
big, too strong, and too scary for Europe to resolve this without us. 
Germany may be a political and economic powerhouse, but Putin knows 
Chancellor Merkel cannot enforce European diplomacy. While the 
Chancellor has done a remarkable job in holding Europe together in this 
crisis, no European state can afford to get into a confrontation with 
Russia.
    Without U.S. leadership in this crisis, Putin might succeed in 
creating a new dividing line in Europe. As he creates facts on the 
ground, he shifts the goalposts of what becomes an acceptable outcome 
in European diplomacy focused on ending violence. Europe may feel 
forced to accommodate a revanchist Russia rather than check its power. 
As we've seen throughout history, this is a dangerous formula.
    Only U.S. leadership in this crisis provides the necessary 
condition to ensure the sustained resolve of our allies, most of who 
are bearing a far greater economic cost to their own economies.
    Our strategy today is basically to raise the costs on Russia by 
imposing sanctions, protect NATO, and count on the long-term 
fundamentals, which are on our side and are working against Russia. The 
problem is that we have an immediate crisis. Putin likely sees the 
immediate future as his best window of opportunity. And in the short 
term, we may see a group of nations lose their sovereignty and Russia 
tempted to push further into NATO territory.
    We can avoid this outcome. The United States has the ability to 
rally its allies and international partners around a comprehensive 
strategy that not only deters Putin's aggression, but also avoids an 
unstable grey zone in Europe's east.
    To do so, we should begin by articulating our vision--what we want 
to achieve. I contend that should be a Europe whole, free, and at peace 
that embraces democratic nations in Europe's east and in which Russia 
can find its peaceful place in Europe.
    We should more decisively increase the costs to Russia, including 
by refusing to treat Putin (and the FSB) as normal interlocutors, 
expanding the economic sanctions to include Putin and his inner circle, 
targeting Gazprom directly, and letting Moscow know that we are 
considering cutting off Russia from SWIFT financial transactions.
    The most effective response is Ukraine succeeding in becoming a 
modern European state. We very well may see a shift from the military 
battlefields of the Donbas to the financial markets. Putin after all is 
out to win all of Ukraine, not simply consolidate his hold on a slice 
of territory in the east.
    And yet U.S. and European assistance to date is modest. There is no 
governmentwide concerted effort to assist Ukraine comparable to the 
White House-led effort to implement the reset with Russia. There is no 
response commensurate with how Congress reacted to support campaigns 
against Ebola and ISIS. The amounts of assistance under consideration 
are too small to serve as the catalyst for reform in a nation of over 
50 million people. We are far more generous helping Jordan weather the 
Syria crisis as we plan to provide $1 billion in assistance to a nation 
of over 6 million. We provided $1 billion to 4.5 million Georgians 
after Russia's invasion. While the IMF and EU can and will contribute 
more to Ukraine, the U.S. sets the tone and for now the tone is 
ambivalent.
    Assistance to Ukraine should include substantial military 
assistance. The United States is uniquely positioned to assist Ukraine 
to defend itself and to raise the costs of further Russian military 
action against Ukraine. There is no military solution in Ukraine and no 
one wants Ukraine to suffer a full-scale war with Russia. But by 
reassuring Putin that we will either not provide or greatly constrain 
our military and intelligence assistance, we signal to the Kremlin what 
Russia can get away with. Our current posture is escalatory as it gives 
Russia the confidence it needs to believe it can achieve particular 
means through military options at acceptable costs.
    Any assistance package should therefore include substantial 
military assistance, including lethal military assistance such as 
antiarmor missiles, as well as intelligence support. Such a U.S. 
decision could unlock lethal military assistance from Canada and 
several other European and Asian allies. We should also support large-
scale training in civil resistance in Ukraine as part of creating a 
deterrent state.
    One vehicle for such assistance could be an expansion of the 
European Reassurance Initiative and renaming it the European 
Reinforcement Initiative to underscore its focus on building well-
armed, well-trained deterrent states including frontline allies, key 
partners such as Finland and Sweden, and states under duress including 
Ukraine, Moldova, and Georgia.
    Within NATO, even as we continue to implement the good Wales summit 
decisions, the alliance should also move away from ``reassurance,'' 
which focuses on the insecurities of our allies, and embrace 
``deterrence,'' which underscores the threat. To this end, the U.S. 
Congress could endorse a more substantial U.S. and NATO military 
presence along NATO's Eastern flank until such time as Putin 
demonstrates that Russia is no longer a threat or potential threat to 
our allies; support a focused training effort to build frontline 
states' military capacities; call for a halt to any further U.S. force 
withdrawals from Europe; and order a review of U.S. force posture 
including how to prioritize Russia in determining the availability of 
forces to U.S. combatant commands. Such a package could be designed to 
leverage such U.S. commitments to European security to secure greater 
European commitments to defense investment.
    Russia's aggressive new posture has translated into an intense 
diplomatic effort to buttress Russian influence elsewhere, especially 
in southeast Europe, and to disrupt ongoing European integration 
processes. We should respond to aggression in Europe's East by 
consolidating Europe's South. This would mean inviting Montenegro to 
join NATO, undertaking a renewed push to resolve the Macedonia name 
impasse, and intensifying efforts to build U.S. strategic partnerships 
with Serbia and Cyprus.
    A comprehensive transatlantic strategy to deter Putin should expand 
the playing field to areas of strength for us--energy and trade. We 
should harness America's energy prowess to increase global supply, 
while supporting European efforts to create a European energy union 
that includes Ukraine and Moldova from that start. At the same time, we 
should be explicit that our intention is to negotiate a Transatlantic 
Trade and Investment Partnership (TTIP) that is open to European 
nations who have deep and comprehensive free trade agreements with the 
EU, notably Ukraine, Moldova, and Georgia.
    At the same time, the United States must work much more closely 
with its allies on how to mitigate Russian efforts to sow dissension 
within the alliance. Such efforts begin with more transparency and 
stronger financial disclosure laws and practices in our societies to 
expose potential Russian manipulation of institutions, media, or 
political parties.
    Western leaders must also assume responsibility for countering the 
Russian propaganda war by being willing to speak publicly and clearly 
about Russia's actions. If we are unable to recognize the threat Putin 
poses to our interests or challenge the misperceptions that surround 
this conflict, we are unlikely to formulate an effective, sustainable 
strategy sufficient to deter him for the long term--a strategy that is 
pursued not with confrontational rhetoric, but with resolve and 
determination.
    As long as either KGB veterans retain their grip on the Kremlin or 
the nations in between NATO and Russia remain trapped in an insecure 
grey zone, we will face continued challenges and conflict. The Russian 
people, as we saw on the streets of Moscow Sunday, will some day have a 
say about their leaders. But the United States and its allies--along 
with Ukrainians, Moldovans, and Georgians--have a say about the latter.

    Senator Johnson. Thank you, Mr. Wilson. Our final witness 
is the Honorable Steven Pifer. Am I pronouncing that correctly?
    Ambassador Pifer. Yes, sir.
    Senator Johnson. Good. Mr. Pifer is a senior fellow at the 
Brookings Institute and was a former U.S. Ambassador to Ukraine 
from 1998 to 2000. He is a retired Foreign Service officer with 
over 25 years at the State Department focused on United States 
relations with the former Soviet Union and Europe.
    Mr. Pifer.

 STATEMENT OF HON. STEVEN PIFER, DIRECTOR OF THE ARMS CONTROL 
  AND NONPROLIFERATION INITIATIVE, THE BROOKINGS INSTITUTION, 
                         WASHINGTON, DC

    Ambassador Pifer. Thank you, Mr. Chairman. Mr. Chairman, 
Senator Shaheen, Senator Gardner, thank you for the opportunity 
to testify today on Russia's aggression against Ukraine and the 
West's policy response. With your permission I will submit a 
written statement for the record and summarize it now.
    What began as an internal Ukrainian political dispute 
became a conflict between Russia and Ukraine in early 2014. 
Moscow has used military force to seize Crimea, supported armed 
separatists, and sent regular Russian Army units into Eastern 
Ukraine. After a September cease-fire agreement failed, a 
second cease-fire, referred to Minsk II, was agreed to in 
February. That agreement is fragile at best. Its implementation 
will prove difficult.
    Driving Russia's aggression has been a mix of geopolitical 
and domestic political considerations, including the fear that 
the Maidan demonstrations in Ukraine could provide a model that 
the Russian people might emulate. The Kremlin's goal appears to 
be to destabilize the Ukrainian Government and make it harder 
for Kiev to address its urgent economic reform agenda and draw 
closer to the European Union. The West has responded with 
sanctions. While having a major impact on the Russian economy, 
the sanctions have not yet achieved their political goal, to 
effect a change in the Kremlin's policy toward Ukraine.
    Beyond Ukraine, the United States and Europe face a broader 
Russia problem. Moscow has operated its military forces in a 
provocative manner, and asserts a right to protect ethnic 
Russians and Russian speakers wherever they are located and 
whatever their citizenship. That could pose a threat to other 
states in the region, including Estonia and Latvia, both 
members of NATO.
    In response, the United States and the West should pursue a 
multipronged strategy to deal with Russia's violations of 
Ukraine's sovereignty and territorial integrity and Moscow's 
generally more confrontational approach. That strategy should 
have five vectors.
    First, NATO should bolster its ability to deter Russian 
threats to the alliance's members, particularly in the Baltic 
region. This entails enhancing NATO conventional force 
capabilities, including capabilities to deal with the hybrid 
war techniques that Russia has used in Ukraine.
    Second, the West should support Ukraine, including through 
provision of substantial financial assistance if Kiev proceeds 
with serious economic reforms. If the Minsk II cease-fire by 
some chance holds and other terms of the agreement are 
implemented, but the Ukrainian economy collapses, that will 
hardly represent a success for Western policy.
    Third, the West should maintain sanctions on Russia until 
Moscow demonstrates a full commitment to a negotiated 
settlement in eastern Ukraine and takes demonstrable and 
substantive measures to implement that settlement. Should 
Russia not do so, or should separatists and Russian forces 
resume military operations, the United States and European 
Union should rapidly move to impose additional sanctions. It is 
important to make clear to Russia that its egregious behavior 
will have significant costs so that the Kremlin does not come 
to believe it can pursue hybrid warfare elsewhere at a 
tolerable price.
    Fourth, the United States should make preparations to 
provide increased military assistance to Ukraine, including 
defensive arms, particularly light antiarmor weapons. Provision 
of that assistance should proceed if the separatists or 
Russians violate the cease-fire, or if Moscow fails to 
implement the full terms of the Minsk II agreement. The 
assistance would fill gaps in the Ukrainian Army's ability to 
defend Ukraine against attack. The rationale is to enable the 
Ukrainian Army to impose costs on the Russian military, to 
deter Moscow from further fighting, and to encourage it to 
pursue a peaceful settlement.
    Some express concern that U.S. provision of defensive arms 
would lead Russia to escalate, but escalation would carry major 
risks for Moscow. It would require more overt involvement by 
the Russian Army in eastern Ukraine. That would be more visible 
internationally, likely triggering additional sanctions, and to 
the Russian public, from whom the Kremlin has sought to hide 
the fact that Russian soldiers are fighting and dying in 
Ukraine. Others worry that providing arms would split U.S.-
European unity. There is no evidence to back that. To be sure, 
Chancellor Merkel says that Germany will not provide arms, but 
during her visit in Washington on February 9, she did not give 
the President a red light or threaten a breakdown in 
transatlantic solidarity. And other allies would likely provide 
Ukraine defensive weapons once the United States began to do 
so.
    Fifth, the United States should leave the door open for 
Russia to change course and help settle the conflict, even if 
expectations of such a change in Moscow's policy should be and 
are modest at best. Finally, while Ukraine has correctly 
deferred the issue of Crimea now, the West should continue to 
not recognize Russia's illegal annexation of the peninsula.
    Mr. Chairman, Senator Shaheen, distinguished members of the 
subcommittee, Russia's actions on Ukraine and its more 
confrontational approach represent a serious challenge to the 
United States, Europe, and the West. Dealing with the Russian 
challenge requires a multipronged strategy based on firmness, 
patience, and solidarity with United States allies and friends 
in Europe. But given the large differences in economic, 
military, and soft power between the West and Russia, the West 
should be fully able to meet that challenge.
    Thank you for your attention.
    [The prepared statement of Mr. Pifer follows:]

                   Prepared Statement of Steven Pifer

                              introduction
    Mr. Chairman, Senator Shaheen, distinguished members of the 
subcommittee, thank you for the opportunity to testify on Russia's 
aggression against Ukraine, and the U.S. and West's policy response.
    What began as an internal Ukrainian political dispute became a 
Ukraine-Russia crisis in early 2014. Since then, Moscow has used 
military force to seize Crimea, supported armed separatists and 
ultimately sent regular Russian army units into eastern Ukraine. A 
cease-fire agreement was reached in Minsk last September, but the 
separatists and Russians failed to implement its terms. The Minsk II 
cease-fire agreed on February 12 may now be taking effect but seems 
fragile at best. Implementing other terms of the agreement will prove 
difficult.
    Driving Russia's aggression has been a mix of geopolitical and 
domestic political considerations. The Kremlin's goal over the past 
year appears to have been to destabilize and distract the Ukrainian 
Government, in order keep that government from addressing its pressing 
economic, financial, and other challenges as well as from drawing 
closer to the European Union through implementation of the EU--Ukraine 
association agreement.
    Beyond Ukraine, the United States and Europe face a broader Russia 
problem. Moscow has operated its military forces in a more provocative 
manner near NATO members and has asserted a right to ``protect'' ethnic 
Russians and Russian speakers wherever they are located and whatever 
their citizenship. That policy could pose a threat to other states, 
including Estonia and Latvia, both members of NATO.
    The United States and the West should pursue a multipronged 
strategy to deal with Russia's violation of Ukraine's sovereignty and 
territorial integrity and Moscow's generally more confrontational 
approach. First, NATO should bolster its ability to deter Russian 
threats to the alliance's members, particularly in the Baltic region. 
This means enhancing NATO conventional force capabilities there, 
including capabilities to deal with the hybrid warfare techniques that 
Russia has demonstrated in Ukraine.
    Second, the West should support Ukraine, including through 
provision of substantial financial assistance if Kiev proceeds with a 
serious reform agenda. Avoiding a financial collapse of Ukraine will 
require that the European Union and United States supplement the 
International Monetary Fund's extended fund facility program.
    Third, the West should maintain economic and other sanctions on 
Russia until Moscow demonstrates a full commitment to a negotiated 
settlement in eastern Ukraine and takes demonstrable and substantive 
measures to implement that settlement. Should Russia not do so, or 
should separatist and Russian forces resume military operations, the 
United States and European Union should impose additional sanctions.
    Fourth, the United States should make preparations to provide 
increased military assistance to Ukraine, including defensive weapons. 
Provision of that assistance should proceed if the separatists or 
Russians violate the cease-fire, or if Moscow fails to implement the 
terms of the Minsk II agreement.
    Fifth, the West should leave the door open for Russia to change 
course and help end the conflict in eastern Ukraine, even if 
expectations of such a change in Moscow's course are modest at best.
    Finally, while Ukraine has correctly deferred the issue of Crimea 
for now, the West should continue to not recognize Russia's illegal 
annexation of the peninsula. If Russian actions regarding eastern 
Ukraine merit sanctions relief, the United States and European Union 
nevertheless should maintain some sanctions, including measures 
specifically targeted at Crimea, until the peninsula's status is 
resolved to Kiev's satisfaction.
                  russia's aggression against ukraine
    Russia and the other independent states that emerged from the 
collapse of the Soviet Union in 1991 agreed to respect the state 
borders as they existed at the time. Unfortunately, Russia did not hold 
to that commitment. The Kremlin has supported separatist efforts and 
``frozen'' conflicts in Transnistria, a breakaway part of Moldova, and 
South Ossetia and Abkhazia, breakaway regions from Georgia, whom Russia 
recognized as independent states following the August 2008 Georgia-
Russia conflict. Moscow has again violated the sovereignty and 
territorial integrity of another state, this time, Ukraine.
    Ukraine went through a wrenching internal political crisis from 
November 2013 to the end of February 2014, triggered by then-President 
Yanukovych's surprise decision not to sign an association agreement 
with the European Union. Following the security forces' use of deadly 
force against demonstrators in Kiev on February 19-20, Mr. Yanukovych 
signed a power-sharing agreement with the three main opposition party 
leaders.
    Given public anger over the killings the two previous days, it is 
unlikely that the opposition leaders could have persuaded the 
demonstrators to accept the agreement. In any case, they had little 
chance. After signing the document, Mr. Yanukovych abandoned his post 
and disappeared, later turning up in Russia.
    What had been an internal political crisis became a Ukraine-Russia 
conflict at the end of February 2014, when soldiers, in Russian combat 
fatigues without insignia, seized Crimea. The Ukrainians referred to 
them as ``little green men.'' In a March 3 press conference, President 
Putin denied that they were Russian soldiers. Just weeks later, he 
publicly admitted that they were and awarded commendations to their 
commanders.
    In April, armed separatists began to seize buildings in Donetsk and 
Luhansk in eastern Ukraine. Many were pro-Russian locals, but more 
``little green men'' appeared. Moscow supported the separatists with 
funding, arms, and leadership. For example, last April, the self-
proclaimed Prime Minister and Defense Minister of the so-called 
``Donetsk People's Republic'' came from Russia and had apartments in 
Moscow. Further evidence that outsiders played a major role in the 
early days was the seizure of the opera house in Kharkiv, which they 
apparently mistook for the city administration building.
    Over the course of the late spring and summer, as Ukrainian forces 
conducted a counteroffensive in Donetsk and Luhansk (also referred to 
as the Donbas), Russia provided the separatists with heavy arms, such 
as tanks, artillery, and surface-to-air missile systems. These 
apparently included the Buk (SA-11) surface-to-air missile that 
tragically shot down Malaysia Air flight 17 in July.
    The Ukrainian military nevertheless made progress against the 
separatists during the summer, significantly reducing the amount of 
territory they held. On or about August 23, regular units of the Russia 
Army invaded Ukraine and attacked Ukrainian units in the Donbas. When a 
cease-fire agreement was worked out in Minsk on September 5, Ukrainian 
losses reportedly included between 50 and 70 percent of the armor the 
Ukrainian Army had deployed in the Donetsk and Luhansk regions.
    Unfortunately, the September cease-fire never took full hold. The 
separatists and Russians did not implement key elements, such as the 
requirements for withdrawal of foreign forces and military equipment, 
or for securing the Ukraine-Russia border under observation by the 
Organization for Security and Cooperation in Europe. Instead, the 
Russian-backed separatists over the next 5 months took additional 
territory in eastern Ukraine, adding more than 500 square kilometers to 
what they had held on September 5.
    Last month, with fighting escalating, German Chancellor Merkel and 
French President Hollande met with Ukrainian President Poroshenko and 
Russian President Putin in Minsk to seek a new settlement. After a 
marathon all-night negotiation, they announced a new agreement (Minsk 
II) providing for a cease-fire, withdrawal of heavy weapons away from 
the line of contact, and a series of steps to regulate the political 
and economic status of eastern Ukraine.
    The terms of Minsk II are substantially worse for Kiev than the 
terms of the unfulfilled September 2014 agreement. Implementing the 
Minsk II agreement will require good faith and flexibility on all sides 
that has not been shown previously during this conflict. Many analysts 
expect the agreement to break down at some point.
    It appears that Mr. Poroshenko agreed to Minsk II in the face of a 
deteriorating military situation and an urgent need for breathing space 
so that he could focus attention on a looming financial crisis and a 
very necessary economic reform agenda. Given Mr. Poroshenko's 
acceptance of Minsk II, Ukraine's supporters have little choice but to 
support the agreement and its implementation, however difficult its 
terms may appear.
    Unfortunately, the separatist and Russian forces did not initially 
observe the cease-fire, which was supposed to begin on midnight on 
February 14. They attacked the Debaltseve salient occupied by Ukrainian 
Army units, which withdrew on February 18. The Ukrainians then reported 
ominous signs of preparations for a separatist/Russian attack on the 
large port city of Mariupol in southern Donetsk province.
    Greater restraint was shown after February 25. While some shelling 
continues, the line of contact has been markedly quieter than it was 
during the first week of the cease-fire. The sides have pulled some 
heavy weapons back from the line of contact. The cease-fire, however, 
remains fragile and shaky, and Kiev remains concerned about possible 
preparations for an assault on Mariupol.
                            russian motives
    Russia today is passing through a difficult and dark phase, as 
evidenced by the tragic February 27 murder of opposition leader Boris 
Nemtsov, virtually on the doorstep of the Kremlin. Russia's goal with 
regard to Ukraine over the past year has been to destabilize and 
distract Mr. Poroshenko and his government. That makes it far more 
difficult for them to address the pressing economic, financial and 
reform agenda that confronts Kiev, including implementation of the 
reforms mandated by its program with the International Monetary Fund. 
It also makes it more difficult for Kiev to pursue implementation of 
the association agreement it signed last year with the European Union. 
Moscow seems to calculate that a new ``frozen conflict'' in eastern 
Ukraine--or perhaps a ``not so frozen conflict''--provides the 
mechanism to put pressure on Kiev.
    This policy appears to be driven by a mix of geopolitical and 
domestic political considerations. Mr. Putin's concept of Russia as a 
great power includes a sphere of influence in the post-Soviet space. He 
does not seek to recreate the Soviet Union; the Russian economy does 
not wish to subsidize those of other states. But Moscow does want its 
neighbors to take account of and defer to its concerns, particularly as 
regards relationships with Western institutions such as NATO and the 
European Union.
    Mr. Putin very much wanted Ukraine to join the Russian-led Eurasian 
Union, along with Belarus, Kazakhstan, and Armenia. Even under Mr. 
Yanukovych, however, Kiev made clear its preference for the European 
Union. If Moscow cannot have Ukraine in the Eurasian Union, it is 
working to hinder Ukraine's effort to draw closer to Europe.
    Domestic political considerations factor heavily into the Kremlin's 
Ukraine policy. First, the two countries have long historical and 
cultural ties, and pulling Crimea and Ukraine back toward Russia plays 
well with Mr. Putin's conservative political base. That said, polls 
show that most Russians do not want the Russian Army fighting in 
Ukraine--which explains the extraordinary and sometimes disgraceful 
efforts taken by the Kremlin over the past 8 months to hide that fact 
from the Russian people.
    A related consideration is the Kremlin's fear that the Maidan 
demonstrations that brought down Mr. Yanukovych might inspire Russians 
to mount large civil protests of their own. A weak Ukrainian Government 
incapable of meeting the challenges before it ensures that the Maidan 
model will have little attraction for the Russian populace. This 
consideration could mean that Mr. Putin wants a failed Ukrainian state. 
If so, that does not bode well for the prospects for the current cease-
fire and Minsk II.
                 the west and a broader russia problem
    Beyond Ukraine, the United States and Europe today face a broader 
Russia problem. As the Ukraine-Russia crisis intensified from March 
2014 onward, NATO observed a significant increase in provocative 
behavior by Russian military forces, including nuclear exercises and 
snap conventional force alerts. NATO military authorities reported a 
marked jump in the number of cases of Russian bombers conducting 
flights near the air space of NATO member states.
    Such behavior is of concern, as NATO and Russian military forces 
are increasingly operating in close proximity at a time of significant 
West-Russia tensions. That raises the prospect of accidents, 
miscalculation, or misunderstanding. For example, air traffic 
controllers in Scandinavia have reported two instances in which Russian 
intelligence-gathering aircraft recklessly switched off their radar 
transponders when operating in or near commercial air lanes.
    Moscow has for some years asserted a right to ``protect'' ethnic 
Russians or Russian speakers wherever they are located and whatever 
their citizenship. Protecting ethnic Russians was a reason that Mr. 
Putin cited for seizing Crimea--once he admitted that the ``little 
green men'' there were in fact Russian soldiers. He made that claim 
even though there was no evidence of any threat to ethnic Russians on 
the peninsula.
    One must question whether the Kremlin might seek to apply this 
self-proclaimed right elsewhere. Kazakhstan in Central Asia and Estonia 
and Latvia in the Baltic region have populations that are about one 
quarter ethnic Russian. The latter two states are members of NATO, to 
whom the United States has an obligation to defend under Article 5 of 
the 1949 Washington Treaty.
    There may not be a significant likelihood of a Russian conventional 
attack on the Baltics or even of the appearance of ``little green men'' 
in Estonia or Latvia. But, given recent events and the Kremlin's 
hostile rhetoric, it would be prudent for NATO to assume that the 
probability of those contingencies is not zero and take appropriate 
measures.
    Mr. Putin has displayed a deep antipathy toward NATO, for instance, 
in his March 18, 2014, speech on Crimea's annexation. Imagine a 
scenario in which 40-50 ``little green men'' seized a government 
building in Estonia, citing ethnic Russian grievances, while Moscow 
denied any connection. If Estonia asked NATO to treat that as an 
Article 5 contingency, and the alliance debated the issue for a week or 
two, that would be a major blow to confidence within NATO and a major 
victory for Mr. Putin. It is in NATO's interest to minimize the odds 
that the Kremlin might be tempted to try such a scenario.
                    the u.s. and the west's response
    The United States should respond to Russia's belligerence against 
Ukraine for three reasons. First, over the past 24 years, Ukraine has 
been a responsive partner when asked by the United States. In the early 
1990s, largely at U.S. behest, Ukraine rid itself of the world's third-
largest nuclear arsenal, including some 1,900 strategic nuclear 
warheads targeted or targetable on the American homeland. By 1996, 
Ukraine had transferred all the warheads to Russia for elimination. By 
2001, it had eliminated the missile silos, intercontinental ballistic 
missiles and heavy bombers on its territory. In 2003, following the 
fall of Baghdad, Ukraine at U.S. request contributed three battalions 
to the Iraq stabilization force. For a period, the Ukrainian contingent 
was the fourth-largest in Iraq after the forces deployed by the United 
States, Britain, and Poland.
    Second, the United States is a signatory, along with Britain and 
Russia, to the 1994 Budapest Memorandum on Security Assurances, which 
among other things committed those countries to respect the 
sovereignty, independence, and territorial integrity of Ukraine as well 
as to not use force or the threat of force against Ukraine. That was a 
key element of the arrangement that led to Kiev's decision to give up 
nuclear weapons. Russia has grossly violated its commitments under the 
memorandum. The United States should respond by supporting Ukraine and 
taking steps against Russia.
    Third, Russia's use of force against Ukraine egregiously violates 
the cardinal rule of the European security order since the 1975 
Helsinki Final Act: borders are inviolable, and states should not use 
force to alter them or take territory from other states. The West 
should push back against this, lest the Kremlin conclude that the kind 
of hybrid warfare that it has conducted against Ukraine is a successful 
tactic that could be applied at tolerable cost elsewhere.
    Dealing with Russia's violation of Ukraine's sovereignty and 
territorial integrity and its generally more confrontational approach 
toward the West will require a multipronged Western strategy. That 
strategy should include measures to strengthen NATO, support Ukraine, 
and penalize Russia with the objective of getting the Kremlin to pursue 
and implement a negotiated settlement. Specifically, this means actions 
along five vectors.
                           strengthening nato
    NATO should strengthen its ability to deter Russian threats to the 
alliance's members, particularly by bolstering its defenses in the 
Baltic region and Central Europe. This entails prudent steps to enhance 
NATO conventional force capabilities, including capabilities to deal 
with Russian hybrid warfare techniques.
    In order to assure Moscow that NATO enlargement would not entail 
the movement of significant military forces toward Russia's border, the 
alliance in 1997 said that there would be no ``additional permanent 
stationing of substantial combat forces'' on the territory of new NATO 
members. Although some allies have called for renouncing that policy in 
the aftermath of Russia's seizure of Crimea, the alliance as a whole 
has not agreed to a change. NATO has, however, begun strengthening its 
military capabilities in the Baltic States and Central Europe.
    Beginning last April, the U.S. Army deployed light infantry units 
of about 150 personnel each in Poland and the three Baltic States. The 
Pentagon has described these as a ``persistent'' deployment: when a 
unit rotates out, another rotates in in its place. Other allies have 
increased the size and frequency of their ground force exercises in the 
region. The U.S. Army plans to deploy some 150 Abrams tanks and Bradley 
fighting vehicles in Europe, possibly in Poland; that would be 
sufficient to equip a heavy armored brigade.
    The alliance's air presence for the Baltic air-policing mission has 
been increased substantially since last March. NATO now deploys on 
average at least three times the number of aircraft in the Baltics as 
it did previously. On the southeastern flank, U.S. and NATO warships 
make far more numerous entries into the Black Sea than before.
    These actions have two principal goals. First, they aim to assure 
allies in the Baltic region and Central Europe of the firm alliance 
commitment to their defense. Second, they aim to make clear to Moscow 
that NATO will defend the territory of all allies.
    Meeting in Wales last September, NATO leaders agreed to take 
additional measures. They decided to create a response force with the 
capability to deploy 5,000 troops anywhere within the alliance on 48 
hours notice. In February, NATO Defense Ministers announced that 
headquarters elements would be established in the Baltic States, 
Poland, Romania, and Bulgaria. This step plus measures to enhance the 
infrastructure to support incoming troops and equipment will strengthen 
those countries' ability to receive reinforcements in a crisis.
    Congress should support funds for these and other measures to 
strengthen the U.S. and NATO conventional force presence in the Baltic/
Central European region. Specifically, the United States should 
consider increasing the size of its ground force presence in the region 
and seek the commitment of units from European allies to deploy on a 
``persistent'' basis alongside U.S. units in the Baltic States and 
Poland. NATO should develop and exercise capabilities to deal rapidly 
with a ``little green men'' scenario on allied territory.
    In overall conventional forces, the United States and NATO continue 
to enjoy qualitative and quantitative advantages over the Russian 
military. The Russian military, however, is engaged in a major 
modernization and rearmament program. NATO must make the investments 
needed to maintain its areas of advantage. The administration and 
Congress should urge allies to devote greater resources to the 
territorial defense of the alliance. Unfortunately, few allies 
currently meet NATO's agreed standard of spending 2 percent of GDP on 
defense.
    The U.S. response should focus on strengthening conventional force 
capabilities. The U.S. Air Force reportedly maintains some 200 B61 
nuclear gravity bombs at airfields in Belgium, Germany, Italy, the 
Netherlands, and Turkey. Those suffice to meet the mission of the U.S. 
nonstrategic nuclear arsenal in Europe, which is fundamentally 
political: to assure allies of the commitment of U.S. nuclear forces to 
their defense, and, if used, to signal the adversary to halt aggression 
or risk a strategic nuclear response.
    Some have suggested that, in answer to Russian aggression in 
Ukraine, the United States should deploy nuclear weapons on the 
territory of NATO members in Central Europe, who have joined the 
alliance over the past 16 years. That would be unwise for three 
reasons.
    First, deploying nuclear weapons to the relatively new members in 
the Baltic States or Central Europe would make the weapons more 
vulnerable to a Russian preemptive attack in a crisis. For example, the 
Iskander ballistic missiles reportedly deployed in Russia's Kaliningrad 
can carry conventional or nuclear weapons. From Kaliningrad, Iskander 
missiles could cover and rapidly strike targets in two-thirds of Poland 
and virtually all of Lithuania and Latvia. U.S. nuclear assets are far 
less vulnerable at their current bases.
    Second, deploying nuclear weapons to the new members would violate 
NATO policy. Many, probably most, allies would oppose such a move. In 
1997, the alliance stated that it had ``no intention, no plan and no 
reason'' to deploy nuclear arms on the territory of new member states. 
While some allies have sought to have NATO renounce or alter its policy 
of not permanently stationing substantial combat forces on the 
territory of new members, no ally has seriously raised the idea of 
changing the existing policy on no deployment of nuclear arms on the 
territory of new member states.
    Third, placing U.S. nuclear weapons so close to Russia would be 
seen in Moscow as an extremely provocative act, on par with the attempt 
by the Soviet Union in 1962 to place nuclear-armed missiles in Cuba. It 
does not make sense to respond to Russian actions with a deployment 
that would make American nuclear weapons more vulnerable, cause a major 
rift within NATO, and unduly provoke Russia.
                     supporting ukraine financially
    The United States and Europe should take substantial measures to 
support Ukraine with grants and low interest loans as it proceeds with 
difficult economic, rule of law and anticorruption reforms. The 
International Monetary Fund has reached preliminary agreement with 
Ukraine on a 4-year extended fund facility that will provide $17.5 
billion. That will significantly help Ukraine, but it will not suffice. 
Ukraine could need an estimated $20-$25 billion more over the next 2 
years in grants and low interest financing. Much of that will have to 
come from the European Union and United States.
    EU officials and member states have shown no enthusiasm for 
providing assistance on that scale. But the European Union may well do 
more, as it does not wish to have to deal with a large failed Ukrainian 
economy on its eastern border. The United States also should be ready 
to contribute more than the loan guarantees promised for this year.
    Finding this money on either side of the Atlantic will not be easy. 
However, if the European Union and United States are serious about 
helping Ukraine, they should provide the financial assistance. If the 
Minsk II cease-fire by some chance holds and other terms of the 
agreement are implemented but the Ukrainian economy collapses, that 
will hardly represent a success for Western policy.
    Of course, the International Monetary Fund, European Union, and 
United States must, as a condition of their assistance, insist that 
Ukraine take the necessary reform steps. Absent such reforms, Western 
assistance would not go to good use. The leadership in Kiev hopefully 
understands that, unless they put in place the needed critical mass of 
reforms, the Ukrainian economy will remain mired in stagnation for 
years, if not decades.
                           penalizing russia
    Over the past year, the United States, European Union, and other 
Western countries have imposed increasingly severe sanctions on Russia, 
following its seizure of Crimea and subsequent actions in eastern 
Ukraine, with the objective of effecting a change in Moscow's policy. 
The sanctions began with visa bans and asset freezes on selected 
individuals. They expanded to major sanctions targeting key Russian 
companies in the finance, defense, and energy sectors, for example, by 
barring new financing or the export of Western technology.
    By all appearances, those sanctions are having a significant impact 
on the Russian economy, multiplied by the effect of the fall in the 
price of oil. For example, according to the Russian Central Bank, 
capital flight from Russia totaled $150 billion in 2014. Over the 
course of that year, Russian reserves fell from some $510 billion to 
$385 billion, in part due to an attempt to prop up the falling ruble; 
the ruble nevertheless has lost half of its value against the dollar 
since last summer. The Russian economy is officially projected to 
contract by 3 percent in 2015, while some economists predict a much 
steeper contraction. Russian officials have responded by seeking to cut 
most parts of the 2015 state budget by ten percent.
    The sanctions, however, have not yet achieved their political 
objective, which is to get Russia to make a genuine change in policy 
course regarding Ukraine. If the cease-fire holds, that will be a 
positive step, but Moscow must also implement all of Minsk II's terms 
and use its significant influence with the separatists to achieve a 
durable settlement.
    Should Russia not implement Minsk II, or should separatist or 
Russian forces resume military action, perhaps aimed at Mariupol, the 
United States and European Union should immediately apply new economic 
sanctions on Russia. U.S. and EU officials should consult now so that 
they have a package of additional sanctions ready.
    Some analysts question whether the sanctions will prompt a 
different policy in Moscow. They argue that Mr. Putin will use the 
sanctions to blame the West for Russia's economic woes and rally the 
Russian people to resist. That has been his instinctive response.
    If, however, the sanctions remain in place, Moscow's financial 
reserves will drop precipitously, and the average Russian will see a 
decline in his or her purchasing power. This could raise discontent 
among the Russian populace and affect Mr. Putin's approval ratings, 
something to which he pays close attention. Moreover, Mr. Putin almost 
certainly wishes to avoid exhausting Russia's reserves. It is not yet 
clear how he will respond if he faces this scenario.
    In any event, even if one were not certain that sanctions would 
deliver the desired result, they allow the West to impose a significant 
cost on Russia commensurate with the nature of Russia's egregious 
actions in Ukraine. Absent sanctions, and having ruled out use of 
military force on Ukraine's behalf, the West would have few penalties 
of any real consequence to levy.
    Mr. Putin may be betting that Western resolve to maintain the 
sanctions will flag, or that he can win sanctions relief with cosmetic 
gestures. A key date will be July, when some of the major EU sanctions, 
imposed last July, come up for renewal for another year. Maintaining 
Western solidarity and persuading the Kremlin that the sanctions will 
remain in place, or possibly increase, absent steps by Moscow to 
facilitate a settlement in eastern Ukraine, could prove critical to 
affecting the Kremlin's calculations.
    U.S. sanctions to date have been imposed by Executive order, which 
allows the administration the flexibility to increase or relax them, 
depending on Russian actions. A threat of congressionally mandated (as 
opposed to authorized) sanctions could have a useful effect on Moscow. 
However, actually mandating congressional sanctions could well prove 
counterproductive.
    The Russian experience has been that Congress is slow to remove 
sanctions, even when they achieve the desired Russian policy change. 
Moscow met the requirements of the 1974 Jackson-Vanik amendment in the 
mid-1990s, but Congress did not graduate Russia from the provisions of 
Jackson-Vanik and grant Russia permanent normal trade relations status 
until more than 15 years later, in December 2012--and then only in the 
Magnitsky Act, which leveled new sanctions on Russia. If Moscow 
believes that congressionally mandated sanctions will never be lifted, 
or if it believes that they will be lifted only years after Russia 
meets the sanctions' requirements, those sanctions give the Kremlin no 
incentive to change its policy.
                      assisting ukraine militarily
    Over the past 10 months, the Ukrainian Army has had to face 
separatists equipped with large numbers of Russian heavy arms as well 
as regular Russian Army units. While the Ukrainian military has had 
some success, it is underfunded, undermanned and undertrained, and it 
faces an opponent that has better weapons and superior intelligence, 
surveillance and reconnaissance assets. The Ukrainian Army has 
significant gaps in capabilities that severely degrade its ability to 
defend Ukrainian territory against further attack by separatist and 
Russian forces.
    The United States provided Ukraine $120 million in nonlethal 
military assistance in 2014, and the U.S. Army will this month begin a 
training program for Ukrainian National Guard units. The United States 
should do more.
    Seven other former U.S. Government officials and I one month ago 
released a report entitled ``Supporting Ukraine's Independence; 
Resisting Russian Aggression: What the United States and NATO Must Do'' 
(http://www.brookings.edu/research/reports/2015/02/ukraine-
independence-russian-aggression). In preparing the report, a number of 
us traveled in January to Brussels to meet NATO civilian and military 
leaders and to Ukraine, where we met with senior government and 
military officials, both in Kiev and at the Ukrainian army's field 
headquarters in Kramatorsk, in Donetsk province.
    The report advocates a significant increase in U.S. military 
assistance to Ukraine--to $1 billion per year for 3 years. That is 
serious money; it reflects a serious effort to support the Ukrainian 
Army. While most of the recommended assistance would go to nonlethal 
equipment, the report also recommends a change in U.S. policy to allow 
provision of lethal defensive weapons.
    In the nonlethal category, the report recommends providing 
counterbattery radars to pinpoint the origin of long-range artillery 
and rocket strikes, which the Ukrainians said cause 70 percent of their 
casualties. The report proposes provision of unmanned aerial vehicles 
for surveillance and reconnaissance purposes, electronic 
countermeasures to jam enemy unmanned aerial vehicles, secure 
communications equipment, armored Humvees and medical support 
equipment.
    The report also recommends providing light anti-armor weapons. We 
were told in Kiev that the light antiarmor weapons in the Ukrainian 
Army's inventory are more than 20 years old, and a large number of them 
simply do not work.
    Such assistance would help the Ukrainian military fill its gaps. 
The objective is not to give Ukraine the capability to defeat the 
Russian Army. That is beyond what a U.S. military assistance effort 
could do. The goal instead is to give the Ukrainian military the 
capability to inflict greater costs on the Russian Army should the 
Russians resume or escalate the fighting--and thereby deter Moscow from 
further military activity and encourage the Kremlin to work for a 
peaceful settlement.
    Several concerns have been expressed about the proposal to provide 
Ukraine with defensive arms. One is that Russia will respond by 
escalating the conflict. The Ukrainians understand that risk and 
understand that they would bear the brunt of any escalation, yet they 
still request military assistance and defensive arms so that they can 
better defend their country.
    Moreover, while the Kremlin might choose to escalate, that course 
carries risks for Moscow. Significant escalation would require more 
overt involvement by the Russian Army. That would be visible 
internationally and likely trigger additional sanctions, an area where 
the West has escalation dominance.
    More overt escalation would also be visible to the Russian public, 
from whom the Kremlin has done everything that it could to hide the 
fact that Russian soldiers are fighting and dying in Ukraine. And 
taking additional territory means occupying land that will likely be 
more hostile to Russia, whose troops would face the prospect of 
partisan warfare. Escalation thus would not necessarily be an easy 
choice for the Kremlin.
    Others worry that providing Ukraine defensive weapons would put the 
United States on the path to a direct confrontation with Russia. But 
there is nothing automatic or inexorable about that. The United States 
should not send combat troops to fight in Ukraine, nor should it 
provide advanced offensive weapons. The Ukrainians have asked for 
neither. To be sure, Washington needs to be clear with Kiev on the 
limits of U.S. military assistance, but the U.S. Government would 
control any decision about how far to go. It can build in significant 
firebreaks that would prevent a spiraling escalation.
    Still others assert that a U.S. decision to provide defensive arms 
will cause a rupture in trans-Atlantic solidarity toward Russia. There 
is no evidence to suggest that. Our group was told at NATO that, if the 
United States provided defensive arms, other allies--such as Poland, 
the Baltic States, Canada, and Britain--might do so as well. During her 
February 9 visit to Washington, Chancellor Merkel said that Germany did 
not favor providing weapons but did not suggest that a U.S. decision to 
do so would cause a split with Europe. While she did not give President 
Obama a green light on this question, she had every opportunity to give 
him a red light--but she did not do that.
    Our report and recommendations were issued before the Minsk II 
cease-fire agreement was concluded on February 12. The President may 
have put off a decision regarding additional military assistance and 
defensive arms to see whether Ms. Merkel's mediation efforts could 
succeed. The cease-fire did not get off to a good start but appears 
after February 25 to be taking better hold. Given Ukrainian concerns 
about Mariupol, it bears a close watch.
    It nevertheless would make sense for the administration and 
Congress to proceed with preparations for providing Ukraine greater 
military assistance and defensive arms, first by agreeing on the 
necessary authorities and legislation. Doing that will take time. 
Should the cease-fire break down and major fighting resume--
unfortunately, not an unlikely prospect--early preparations would 
facilitate earlier delivery of assistance to Ukraine. U.S. preparations 
to provide assistance and defensive arms might even bolster the cease-
fire, as the prospect of fighting a more capable Ukrainian military 
could affect the calculation in Moscow of the costs and benefits of 
resumed military action.
    Should the cease-fire take full hold and the separatists and 
Russians proceed in good faith to implement the other elements of the 
Minsk II agreement, a decision could always be taken later to suspend 
the actual delivery of defensive arms.
          leaving the door open for a changed policy in moscow
    The U.S. administration and other Western countries have talked of 
leaving Russia a ``diplomatic off-ramp''--a way out of the current 
crisis. Securing a settlement with Russian agreement is important, as 
any settlement that provides for genuine peace and a degree of normalcy 
needs Moscow's buy-in. Russia has many levers, including military and 
economic, to destabilize Ukraine. Unfortunately, it is not yet clear 
that the Kremlin is prepared to consent to such a settlement.
    More broadly, Moscow's assault on Ukraine has brought U.S.-Russian 
and West-Russian relations to their lowest point since the end of the 
cold war. Whereas Western policy toward Russia in the 1990s and early 
2000s was based on an assumption that Moscow wanted to integrate into 
the West and was prepared to abide by a rules-based European security 
order, it is clear that neither premise now holds.
    This is not a desirable state of affairs. There remain issues on 
which U.S. and Russian interests converge--such as preventing Iran from 
acquiring a nuclear weapon, supporting the Afghan Government, and 
implementing the New START Treaty. Cooperation makes sense on these 
questions. The downturn in relations, whose onset predates the Ukraine 
crisis, makes cooperation in other areas more difficult at present.
    The West should leave the door open for a better relationship with 
Moscow if the Kremlin changes the policies that have triggered and 
deepened the current crisis--even if expectations of a change in 
Russian policy are modest at best. More broadly, the West should, while 
pushing back against Russian actions in Ukraine, make clear that a 
restoration of a more positive general relationship is possible if 
Russia shows that it is ready to again abide by rules that served 
European security well for almost four decades.
                          do not forget crimea
    The Ukrainian Government has correctly focused its attention on 
resolving the conflict in eastern Ukraine and said that the issue of 
Crimea should be addressed in the longer term. That is a wise course, 
especially as it is difficult to see how Kiev can muster the leverage 
in the near term to restore Crimea's status as part of Ukraine.
    While Crimea is not now the priority issue, it is important that 
the United States and the West not forget or move to ``normalize'' the 
question. Until such time as the status of the peninsula is resolved to 
Kiev's satisfaction, the international community should sustain a 
policy of not recognizing Crimea's illegal incorporation into Russia.
    If Russian actions regarding eastern Ukraine merit some sanctions 
relief, the United States and European Union nevertheless should 
maintain sanctions on Russia, pending a satisfactory settlement on 
Crimea's status. These would include sanctions that, among other 
things, prevent trade with, investment in and international air routes 
to Crimea.
                               conclusion
    Mr. Chairman, Senator Shaheen, distinguished members of the 
subcommittee, Russia's actions in Ukraine and its more confrontational 
approach present a serious challenge to the United States, Europe, and 
the West. Dealing with that challenge requires a multipronged strategy 
that aims to bolster NATO and support Ukraine while taking steps to 
constrain Moscow's possibilities to threaten other parts of Europe.
    Getting this strategy right will require firmness, patience, and 
solidarity with U.S. allies and friends in Europe. Doing so will be 
difficult, no doubt. But given the significant differences in economic, 
military, and soft power between the West and Russia, the West should 
be fully able to meet this challenge.

    Senator Johnson. Thank you, Ambassador Pifer. I would like 
to start my questioning with President Saakashvili. You 
obviously have firsthand experience with Russian aggression. 
Can you just describe the events of August 2008 and what 
prompted Vladimir Putin to stop advancing into Georgia?
    Mr. Saakashvili. Yes, Senator. What happened in 2008 was 
that we were invaded by a full-blown Russian force, which 
involved more than 100,000 ground troops. More than 1,000 
armor, 200 combat planes on the Russian side took part in the 
operation against basically what was a very small-sized 
Georgian professional army. And in that respect, first we had 
mediation--exactly the kind of mediation that you see now with 
Presidents Hollande and Merkel by President Sarkozy.
    And he came in. We signed the cease-fire agreement. 
Georgian Army withdrew its forces from the contested area, the 
invaded area, and Russia was supposed to withdraw as well. 
Instead, Russian after several days said the situation on the 
ground has changed. They no longer would abide by the agreement 
and started toward the capital. And what really had stopped 
back then was the United States proclaiming military 
humanitarian operation, moving the 6th Fleet first to the 
Georgian ports, and putting planes in Romanian base, and 
putting the airbase in Turkey on high military alert, and 
basically starting to patrolling skies close to Georgia.
    The other day I was at the office of Senator Kirk, who told 
me that he was--back then I did not know this story. He was on 
duty in Patagon. Actually, the United States had to bring back, 
based on our agreement because we were the second biggest--then 
first biggest big capita contributor to operation contributors 
to Iraq and Afghanistan, but at that moment it was Iraq. But 
the agreement we had, the standby agreement with President of 
the United States was that we could repatriate our troops.
    So, what happened that the United States--the United States 
told--first Russia told the United States to remove the 
military cargo plane from the tarmac of Tbilisi International 
Airport. The United States refused to do that, and that was 
already a first important signal because they were told they 
were going to bomb the Tbilisi International Airport, and they 
did not want to move American plane. American plane stayed on 
the tarmac, and that spared us at least that bombing.
    And second thing, they had to bring back Georgian brigades, 
and Georgian skies were fully under control of Russian military 
jets, and they told me that they would not let through the 
United States plane. And then the Pentagon and Senator Kirk 
told me he called specifically the Russian Defense Minister and 
said we are coming anyway. This is the U.S. plane, and you do 
not ever dare to touch us. And they came in, and they did not 
do it. And that was the key moment when after this launch of 
military humanitarian operations just few miles away from our 
capital. Vladimir Putin's clearly proclaimed goal to depose 
democratic elected Government of Georgia, just like they have, 
I think, more or less proclaimed goal to the post-government in 
Ukraine.
    They had to stop, and that was a clear sign that stepping 
up and counting on who would blink first, Putin at that moment 
blinked first. And I have to say I believe there is no--they 
will try to depose government of Ukraine. They will not succeed 
to do it, but that is clearly their plan. It is not their plan 
to just hold to those two regions like it was never planned to 
hold just the regions of Georgia. They wanted to get rid of 
Georgian democracy because that was a dangerous precedent. 
Exactly like having Ukraine succeed, it would just be a very 
dangerous precedent for Russia.
    So sometimes like in Western Berlin, Americans protected 
West Berlin even from Stalin and Western allies, and they 
protected it through all the decades of the cold war. And West 
Berlin was a showcase of what democracy looks like--should look 
like. And that really convinced all of us--I mean, we did not 
need much of convincing. But they convinced, overall, the 
nations that they had to revolt against the Communist system. 
Exactly the same type for today's world like Georgia was in 
2008, I think Ukraine is West Berlin of today, and it is much 
more protectable than West Berlin ever was, and even more 
protected than Georgia was, by the way, because Georgia did not 
have that strategic depth. That is what the example of Georgia 
clearly shows.
    Senator Johnson. Thank you, Mr. President. Mr. Kasparov, we 
hear frequently that we are trying to offer off ramps to 
Vladimir Putin. Do you believe Vladimir Putin is looking for 
any off ramps whatsoever?
    Mr. Kasparov. Well, he is looking for--of course he is 
looking for any negotiation because he is very successful using 
them for his own purpose, but he has no interest in any 
settlement. I believe for long time that his interest was 
opposite to the interest of United States and the free world 
because he always wanted to create conflicts. He needed 
conflicts in the Middle East. You know, conflict was the 
Iranian nuclear problem because these conflicts helped to push 
oil prices up, and that was actually crucial for his regime.
    And now, he needs conflicts because that is the only way 
for him to sell his dictatorship in Russia. The Russian 
propaganda machine is probably worse now than at any time of, 
you know, that I can remember. My mother tells me that--she is 
turning 78--that it is probably worse than Stalin because it is 
more powerful. We have 24/7 propaganda that is anti-American, 
anti-Semitic, anti-Ukrainian, and everybody. And this 
atmosphere, you know, helps Putin to keep Russian subdued.
    His goal, as was mentioned in two testimonies here, is not 
even just to take over the territory of neighboring countries, 
though of course he would love to enlarge Russia. But most 
importantly, to destroy the system of international security 
that has been created in Europe since 1945 and 1991 at the end 
of the cold war. So that is why all these negotiations for him 
are just, you know, a way to buy time, and to gain some more 
ground, and to move forward because Putin does not ask why. He 
always asks why not, and if the free world vacates a space, 
Putin grabs it.
    Senator Johnson. Thank you. You know, we have all heard of 
the little green men. Do any of the witnesses have any kind of 
intelligence estimates in terms of what Russia has committed to 
Eastern Ukraine, how many troops, what type of equipment? Well, 
let me go to Dr. Blank.
    Dr. Blank. In my written testimony, I quote an article from 
Jane's, which came out the other day, was based on conferences 
between Ukrainian officers and American analysts. They say 
there are 14 to 20,000 Russian troops. A report in today's 
paper said that NATO estimates or that the Pentagon estimated 
12,000. So I think we would be comfortable saying between 12 
and 20,000 Russian troops--20,000 Russian troops are in 
Ukraine, thousands more on the border. And a large-scale naval 
and air buildup, including the deployment of nuclear capable 
missiles, is taking place in Crimea as we sit.
    Senator Johnson. President Saakashvili.
    Mr. Saakashvili. Yes, I have photos, Senator, and this 
clearly shows these are the weapons that are only given to 
Russian special forces. This is highly sophisticated Russian 
weapons, would never been given to any local rebels. They have 
brand new infantry fighting vehicles that have an artillery 
launching system. We hear that they were spotted in parades 
inside Russia just 1 year before the invasion, obviously, so 
that is the regular equipment of the Russian Army.
    But besides, I mean, what we have to keep in mind here, 
first, this is the war as you rightly said, Ambassador Pifer, 
that Russia does not even recognize as fighting. So first, they 
were sending in non-Caucasians, mostly Muslim population with 
the hope that mainstream Russians would not really care if they 
die. Now, they are mostly sending troops from beyond the Euros, 
Far East, mostly from--many of them from ethnic minority areas 
from there, and basically are very careful not to send in 
Moscovites and St. Petersburg people. They had to send them 
airborne in August of last year, and there was a political 
scandal after it became known that a number of them died, and 
that really spread in Russia.
    So what this is telling you, that once you raise the cost 
for Putin's invasion, there is no way he is going to pull up 
with the stakes because there is a very thin layer of tolerance 
Russians have toward human casualties. That is the structure of 
his troops, clearly indicate to you that he is really in some 
way here has very little maneuver. So that is so important to 
take this decision on the weapons because that is going to 
reverse many of the plans he has about that country.
    Senator Johnson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Ambassador Pifer, 
I understand that you and a number of your colleagues have 
recently released a report on the Ukrainian crisis. And one of 
the cases that you make in that report is the importance of 
providing military assistance to Ukraine, including defensive 
lethal weapons and light antiarmor weapons. Can you tell this 
panel more about the case that you make in that report and why 
you believe this is important?
    Ambassador Pifer. Thank you very much, Senator. This was a 
report that was issued by the Atlantic Council, Brookings, and 
the Chicago Council on Global Affairs by seven other former 
government officials and myself. Five of us went to NATO and 
went to Ukraine in January to get an understanding of the 
military situation in eastern Ukraine and also specific needs. 
And, most importantly, we had a retired American four-star, 
General Chuck Wald, with us who really could apply a military 
mind.
    The recommendations that we made were for serious 
assistance, we proposed a billion a year for 3 years. And we 
looked at what the Ukrainians both in Kiev, but we also went 
out to the field headquarters at Kramatorsk and met with the 
commander there, the sorts of requests that they had. Actually 
most of their requests were for nonlethal assistance. They 
wanted things like counterbattery radars that could pinpoint 
the origin of rocket strikes and artillery 20 to 40 kilometers 
out. We were told that 70 percent of Ukrainian casualties are 
from rocket and artillery strikes. They wanted reconnaissance 
unmanned aerial vehicles. They wanted the means to jam Russian 
and separatist drones. They wanted secure communications.
    The one item that they requested in terms of lethal 
military assistance was light antiarmor weapons. We were told 
in Kiev that basically their stockpile of these weapons are at 
least 20-plus years old, and about three-quarters of them just 
do not work. So that was the one item that they thought there 
would be a very useful American contribution to filling a 
significant gap that they have.
    Senator Shaheen. And, Mr. Wilson, since the Atlantic 
Council was part of that report, can I ask you to comment on 
that, as well as respond to the concerns that have been raised 
by Germany and France about the potential for escalation of the 
situation in Ukraine if we provide defensive weapons?
    Mr. Wilson. Yes, Senator Shaheen. Thank you very much. I 
think of it in two respects. Strategically, if we are trying to 
help support the Ukrainians in achieving a better political 
outcome for this crisis in the East, the absence and the 
clarity of the fact that we will not provide them weapons 
actually undermines their hand at the negotiating table. So if 
you do believe in a political resolution to what is happening 
in the East, by strengthening the Ukrainian's ability to raise 
the cost for Russians if they turn to further violence, it 
actually puts President Poroshenko in a much better position in 
negotiating an outcome, some type of outcome.
    But there is also a moral argument that we should think 
about, and that Ukraine is a sovereign independent nation that 
is under attack from a neighbor. It is under attack from a 
neighbor after recognizing that we were a party through the 
Budapest Memorandum to helping to respect and preserve its 
territorial integrity. So I think there is a moral aspect to 
this as well, that Ukraine has an essential right to be able to 
defend itself, and us standing back and not supporting it in 
that effort I think carries a heavy strategic and moral burden.
    We have heard from some of our European allies of concerns 
about potential for escalation. The Russians could double down 
and escalate more. It is hard for me to see how--President 
Putin is already arguing to the Russian people that the United 
States and other allies are sending weapons to Ukraine. He has 
already demonstrated his willingness to frontally invade 
Ukraine if he needs to. It is hard for me to see how this 
measure actually is any more provocative than what he is doing 
in Ukraine today.
    There is concern that this will split the alliance. What is 
important is that we do this in a way that brings many allies 
on board with us. I think Ambassador Pifer has said that there 
are at least six allies in Europe and Asia, Canada as well, 
that would likely join the United States decision if it were a 
clear decision.
    There is nervousness about a somewhat ambivalent U.S. 
decision to do this lightly, partially. But I think a serious 
strategic decision to stand by Ukraine with support at the 
level that this report recommends would demonstrate to our 
allies that this was a serious strategy, and we would have some 
of them stand with us, and others not openly opposed.
    Senator Shaheen. And do you have any insights into at what 
point, if at all, Germany and France might change their view 
about the importance of providing weapons?
    Mr. Wilson. I think the greatest likelihood is first United 
Kingdom, Denmark, Poland, Lithuania, Romania, Canada, 
Australia, a collection of countries that would stand with us 
first. I do not think you are likely to see, certainly on the 
German side, active participation in the supply of lethal 
military equipment. However, at the Wales summit, Chancellor 
Merkel and President Hollande did commit, as part of the NATO 
commitment, to intensify NATO's support for Ukrainian defense 
modernization.
    And so I think there is a way not to exclude them, but 
actually to include them in a broader strategic effort to stand 
by Ukraine's building of its defense capacities. They likely 
would not be coming around on the provision of lethal military 
assistance, but they certainly would be partners, I think, in a 
broader effort.
    Senator Shaheen. So you do not see that if Russia continues 
to violate this Minsk II agreement and continues to provide 
material and people, that might encourage Chancellor Merkel and 
President Hollande to change their view? Does anybody--I mean, 
you are about to tell me that you do not think so, I assume.
    Mr. Wilson. Well, I would not completely rule it out. You 
have seen a remarkable evolution of Chancellor Merkel's 
position on this. The incredible nature of what President Putin 
is doing has actually turned German public opinion against 
Russia, which was not something that you could have imagined. 
And frankly, Chancellor Merkel has been the key to holding 
European unity together on the sanctions.
    I think this would be quite a big step for them to move to 
providing lethal military assistance to Ukraine. However, you 
have seen the Germans step forward this year in providing 
lethal military assistance to the peshmerga in Iraq, which in 
and of itself is a significant development in German defense 
policy.
    Senator Shaheen. And does everybody else on the panel agree 
with that? Dr. Blank?
    Dr. Blank. Well, the French Foreign Minister said the other 
day that if Russia continues to break the agreement reached in 
Minsk, that France will vote to expand sanctions. I think 
Russia will continue to violate the Minsk Accords, and, 
therefore, I expect France to follow what President Obama did 
today, which is to extend sanctions and perhaps even enlarge 
them. And I suspect that if Russia does continue to move 
forward, that the French can be persuaded over time to support 
the provision of lethal weapons. Germany I am less certain of 
for the same reasons that Damon has given.
    Mr. Saakashvili. Well, on France, I remember that in 2008 
when they supplied the Mistral helicopter warships to Russia, 
when we strongly protested to them because they were guarantors 
of the cease-fire. Some very high level French officials 
replied to us rather cynically that they would supply us with 
the missiles to sink Mistrals, no problem with that. We would 
like to buy them. So France could be very inventive in this 
kind of an approach.
    Now, in Germany, I saw Chancellor Merkel last month at the 
European People's Party Summit in Brussels. And actually she 
took the floor initially and she told, I know some people at 
this table want to ease the sanctions. I am telling you out 
right, Germany will not support it. And, certainly, she leads 
the sanctions movement right now.
    I do not see Germany, for a number of very historic and 
psychologic reasons, ever supplying lethal equipment, but they 
have been good on supplying nonlethal--I mean, in some other 
cases. I think that might happen. But I do not think that 
should be an impediment to the United States doing that 
because, as I said, I mean, there is a moment when only the----
but the problem with not supplying weapon is of different sort. 
Right now, and this was the case in the case of Georgia, 
because there is no signal from Washington, Czechs, Slovaks, 
Bulgarians, and number of others are refusing to provide even 
spare parts for all Soviet equipment to Ukraine precisely for 
the reason because they do not want to stand alone if 
Washington is not on board. So Washington by not supplying the 
lethal weapons is also blocking the others from doing it 
because that has really become this cornerstone right now, and 
we are at the crossroads. And it is really becoming very 
counterproductive.
    And finally on sanctions. Now, sanctions are always 
helpful, but there is a moment after which a sanctions-only 
policy can cause lots of risk because what might happen is that 
Putin might think, ``I have very little time left, and I had 
better seize the rest of it, go for it. And then, of course, 
from the position of strength negotiate my way out of sanctions 
because Europeans will not sanction anybody for a long time. 
After some time they will come back to me.'' So there is a 
moment when if there are only sanctions, those sanctions might 
be not as helpful as before because you need something else.
    Senator Shaheen. Thank you. My time is up.
    Senator Johnson. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses who are here today. I think it was shortly after 
the demise of the Soviet Union that President H.W. Bush had 
said, ``Europe: whole, free, and at peace.'' And now we see the 
complete rearrangement attempts by Russia to rearrange the 
post-cold-war world international order.
    We have seen a determined effort by brave soldiers in 
Ukraine to stand strong, fight valiantly, but obviously 
overwhelmed and over matched. We have seen questions in the 
Baltic States about our commitment. You and I, President 
Saakashvili, had a conversation about timing, promises made, 
and concern within the region, concern about the promises that 
the United States has made, morale within Ukraine, questions as 
to the resolve of NATO or whether NATO could withstand a 
challenge, if that is indeed the question before us.
    And so, your experience in Georgia, you talked to the 
chairman a little bit about your experience in Georgia. Mr. 
Wilson talked a little bit about the commitment of the 
international community. As President Poroshenko's advisor, as 
the person who has taken this role on internationally, do you 
believe that the international coalition exists and will stand 
with the United States to step up our efforts?
    Mr. Saakashvili. Well, Senator, you are absolutely right. 
There was U.S. guarantee, first of all, for Budapest 
Memorandum. But, you know, one of the things I omitted to 
mention was that U.S. also--the Ukraine also gave, on U.S. 
insistence, MANPADS. They do not have even MANPADS because the 
United States strongly insisted they follow up on their promise 
not only on nuclear warheads, but they also gave thousands of 
MANPADS, which they now really need in that situation.
    So, yes, on international coalition, certainly I agree with 
Mr. Wilson. There are countries that are very much on board, 
but they are right now--basically they are standing by because 
they want for Washington to lead. There is no way they can do 
something on their own. I still would imagine Poland might risk 
doing something on their own, but for the others, I would not 
bet on that. But once there is a signal coming from Washington, 
I am sure there will be strong coalition also on supplying 
weapons.
    And one thing we should know also. There are number of 
people, nationals from these countries, including my nation, 
that are fighting as volunteers on the side of Ukrainian army. 
We have Georgian officers dying for them there. You know, we 
are proud that we are part of the operations, ISAF and the 
others. We had lots of people that died in Afghanistan and 
Iraq, fighting alongside of the Americans.
    But also now, many of those people--many of the people that 
went to Afghanistan with Americans, went to Iraq, they are 
fighting in Ukraine. I have seen--we have a couple of hundred 
Georgians from those operations that also went through the 
training, now fighting there. You also see Poles there. You see 
countries from people from Baltic countries.
    So there is already coalition of citizens of the nations 
around Ukraine fighting for Ukraine because they understand 
that it is also their battle. There is also lots of sympathy in 
those nations, but for that, you need for those countries to 
get together. You need empowerment from Washington. And I am 
sure there are countries that will be American allies on 
military front. Nobody is asking for American boots on the 
ground. That is out of question. Ukraine has enough fighting 
manpower. They have people who will stand up for their nation. 
But also--and there will be other countries that will be a kind 
of second rank, like Germany, that might not be part of the 
large-scale military efforts. But they are certainly an 
important component of the sanctions.
    So I think there is an overwhelming sympathy toward 
Ukraine, and I do not see this falling apart unless something 
dramatic comes from Washington.
    Senator Gardner. Ambassador Pifer, you mentioned in your 
testimony that the sanctions had not yet achieved their 
political goal. And you also then followed it up with we need 
to make it clear to Russia that its actions will have a cost. 
So I want to talk about what do you envision--what would indeed 
extract that political goal, and what would the cost be to 
Russia--needs to be reached?
    Ambassador Pifer. Well, I believe that if the West can 
maintain unity on sanctions, the key point here is persuading 
Moscow that the sanctions will remain in place until the 
Russians change their policy course. You have already seen 
significant damage to the Russian economy--$150 billion in 
capital flight from Russia in 2014. Russian reserves fell by 
about $140 billion over the course of the year, largely to 
support the ruble, and it was not very successful. The ruble is 
about 50 percent of the value against the dollar that it was 
last summer.
    So there has been a huge impact on the Russian economy. In 
fact, the Russian Finance Minister, who about 3 weeks ago 
recommended cutting every aspect of the Russian state budget by 
10 percent, except for defense, is now saying they have to cut 
defense. So there is an impact here.
    But I think Mr. Putin is playing--he is making a bet, and 
that bet is that the West will not be able to sustain the 
sanctions. And there is a very key date here in July, which is 
the European Union imposed sanctions for a 1-year duration. EU 
practices are that if the goal of the sanctions is not 
achieved, the sanctions are rolled over. They are extended for 
another year. Mr. Putin, I think, is hoping that there will be 
enough opposition among EU countries in July that those 
sanctions will not be extended, and that he can basically 
escape the economic pain without having to do the desired 
course correction.
    I think that if, in fact, the West can sustain those 
sanctions and make it clear they are on through the end of the 
year into 2016 until there is a policy change, he is going to 
see his reserves probably run out within 1\1/2\ years or so, 
and he is going to see the average Russian facing huge 
inflation. I think 19 percent is the current figure, and the 
possibility that their average purchasing power may decline 15 
to 20 percent over the course of the year. That, I think, is 
going to have an impact on Mr. Putin and his policy.
    Senator Gardner. And, Dr. Blank, in your written statement 
and in your testimony, how much time would we need in Ukraine 
for proper training with equipment from the United States?
    Dr. Blank. Well, that would depend on the nature of the 
specific equipment, but I do not think it is really going to 
take that long. Everything we have seen says that the 
Ukrainians learn very quickly how to use the equipment. If we 
send it over and we send over enough people who know how to use 
it and train, I think it would be a matter of days or weeks at 
the most.
    But I have to argue that we should have been doing this 
months ago because, like Ambassador Pifer, I believe that Putin 
is going to try to use the spring and summer to create a fait 
accompli in Ukraine and break up the sanctions regime on that 
basis.
    Senator Gardner. And that is another question I want to 
ask. How much time do you think we have on this?
    Dr. Blank. Not much because, frankly, my sources have told 
me that basically the Pentagon has been told to go slow on 
giving even the equipment that it has. There is no excuse for 
saying that we are still doing a review of Ukraine needs. This 
has been going on for a year, yet it is going on. So I think 
there are people in the administration who are deliberately 
undermining efforts to help Ukraine, and they need to be 
stopped and the signal sent out that we will help Ukraine as 
needed.
    Mr. Saakashvili. Senator, last year, last March, when the 
whole thing started, had already started, I have been telling 
some of the administration officials why do you not target this 
training, you know. There is framework for training. They told 
me we do not have enough time. Now, Russia has done since then 
six or seven rounds of training of the so-called separatist 
troops. What it indicates to lots of time has been lost. We 
know from Georgian experience, Americans are very good at 
training. You put marines or some other troops on the ground, 
they can train full brigade within 4 or 4 weeks.
    Remember, the other point for U.S. training is that you do 
not have this kind of disorganized troops when you have U.S. 
trained soldiers that might be used for all kind of bad means, 
like, you know, either moving against legitimate government. 
When you have a U.S. element present, that also brings lots of 
stability to constitutional systems of democracies. That is one 
of the beauties of U.S. training.
    And Ukraine also needs this kind of stability as badly as 
it needs help with defending itself, because you know Russian 
plan is, you know, to inflict defeat on Ukrainians. That is 
their hope. And then send back disorganized troops to do some 
nasty things back in Kiev. And that will never work if U.S. 
training is already installed and in place.
    I already have a list that Ukrainian Government has 
submitted to the United States, which is really quite a need, 
and that list has been circulated quite a lot. The U.S. 
Government knows what is needed. It has been done after lot of 
consultation with unofficial ones, with people in Pentagon.
    This is very important, and by the way, I think it is very 
modest. I looked at the list. It looks really modest. It 
includes also some antitank TOW javelin missiles, but really 
the numbers are so modest. And in terms of money, it is really 
not much. What is really expensive, Ukrainians have antiair, 
they have heavy artillery, they have lots of other things. It 
is not matter of money. It is matter of political will right 
now.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Johnson. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you to all of you for being here today. I am supportive of 
extending defensive weapons to the Ukrainian Army, but I want 
to express now some questions regarding some reservations that 
I have about that position, but then just open with a comment 
regarding my frustration on this conversation.
    We are obsessed with this question of providing arms to the 
Ukrainians, and it matters. But it is obsessive within the 
American context because it is one of the few, if only, tools 
that we have to try to blunt and combat Russian aggression in 
the region. I was there at the height of the Maidan protests. I 
spent 2 hours sitting, talking to President Yanukovych and 
listening to him give a litany of perceived and real abuses 
that Europe and the United States had perpetuated against 
Ukraine.
    And the reality is that we had a long time to try to stop 
this from becoming a crisis, but because we are not resourced 
as a nation, because we hamstring ourselves when it comes to 
the tools that we could use to try to create greater 
partnerships with countries that are at risk of falling into 
the growing Russian sphere, we then are stuck with crises in 
which we know how to respond to because we know we have the 
ability to supply weapons.
    And so, in the fall I was in Belgrade on the day that Putin 
was coming into town to do an unprecedented display of military 
prowess through the central streets while our Ambassador was 
begging for a few thousand dollars from the Federal Government 
here to increase exchange programs with the United States, 
right? We are not doing what is necessary in and around the 
region to try to stop these crises from happening in the first 
place.
    And so, I think this is an incredibly important 
conversation, and I am glad that we are having this hearing. 
But we had better adopt a strategy soon to stop the next 
Ukraine from happening so that we are not caught in this 
crisis, which is a hard one to unwind.
    Here are the reservations that I have. First, let us admit 
that what we are talking about would be relatively 
unprecedented. We are talking about the overt arming of a 
country that is under military threat and occupation and 
invasion from the Russians. Let us just acknowledge that during 
the cold war when the Soviets were a much bigger threat to the 
United States than the Russians are today, we did not do this, 
whether it was the invasion of Hungary or the invasion of 
Afghanistan. Well, we used other tools. We did not at that time 
make the choice to provide overt arms to the Afghans or the 
Hungarians. I think the circumstances are different today, and 
so I am supportive of defensive weapons. But this is not a no-
brainer. This would be a change in the policy that we have 
traditionally observed over the long course of the last 100 
years.
    Here are my two reservations, and I will ask the first 
question to Mr. Pifer. Your report and all of your 
recommendations are predicated on the belief that the cost will 
be so high to Putin that he will change behavior. Whether or 
not this provokes him or not, what if the cost is not high 
enough? What if he continues to move forward and the first 
round of arms that we supply are not enough? What are you 
recommending? Are you recommending one batch of defensive 
weapons? Are you recommending that we stage our supply line to 
them to respond to the moves that the Russians make? What is 
our endgame? When is enough too much?
    Ambassador Pifer. Senator, I think that is a very good 
question, and let me break my answer down into two pieces. 
First of all, we believe that providing these levels of 
weapons, which I think are actually on the low end of the 
military scale--we are not talking about F-16s, advanced 
offensive weapons, and we are certainly not talking about 
American combat troops. But the calculation here is that when 
you go and you look at what the Russians have done over the 
last 8 months to hide from their people the fact that Russian 
soldiers have been killed in Ukraine, it is really 
extraordinary.
    And I would actually argue it is disgraceful. Reports of 
Russian soldiers being buried at night, reports of Russian 
casualties hidden. I head a story from a friend of my wife in 
Moscow who said somebody lost their leg fighting in Donetsk in 
August, and he has been told if you disclose that publicly, you 
will lose your pension forever.
    So I think there really is a real concern in Moscow that 
casualties could have an impact. And I am not sure that Mr. 
Putin cares per se about Russian soldiers and casualties, but I 
think he does care a lot about the impact of that on the 
Russian public's attitude and their attitudes towards him. And 
this is against the background of 4 or 5 months of polls that 
show that while the Russian people may support trying to pull 
Ukraine back toward Russia, majorities do not want to see the 
Russian Army fighting in Ukraine.
    So I think there is--I would make the argument that there 
is a good chance that, in fact, this could succeed in altering 
that cost benefit calculation to the point where the Russians 
would say military escalation makes no more sense because we 
are going have casualties. It will require overt involvement by 
the Russian Army, and, therefore, we want to pursue a peaceful 
settlement.
    We do in our report--nobody who wrote the report--we are 
not recommending American combat troops. We even said that the 
equipment that would be provided has to be operated by the 
Ukrainians so you would not have American technicians there. I 
would say we are not in a position to provide advanced 
offensive arms. We are going to have some limit, and I would 
argue that you need to make that limit clear to the Ukrainians 
privately so that they know what to expect. But we can make a 
firebreak that prevents us from getting caught into an endless 
spiral of escalation with the Russians that, I would argue, 
then keeps us safely on the side of not going into a direct 
United States-Russian military confrontation.
    Senator Murphy. Let me just ask my second question quickly, 
Damon. You talk about the fact that some European allies would 
support us, some would not. Putin has a lot of goals here, but 
one of them is to break Europe. And so, this would be 
convenient for him to have half of Europe supporting defensive 
weapons, half not. What is the potential consequences of Europe 
not being together on this? As many have said, the ultimate win 
here is that the Russian economy suffers under the tremendous 
weight of the sanctions such that it changes his position. But 
are we not going to risk losing countries like the Czech 
Republic, or the Hungarians, or the Greeks if we start to split 
over issues of military arming, or can we hold folks together 
on everything else besides the question of defensive weapons?
    Mr. Wilson. I think many of our allies expect the United 
States to actually lead here. And it would not be unusual if 
you look at controversial decisions in the alliance where the 
United States is out front, has key allies stand with it and 
some others stand behind it. The United States is rarely in the 
middle of the pack there. This is risky. It is not a no-brainer 
as you say. I do not think it is the kind of thing that would 
lead to an overt split within the alliance.
    We saw even over something as sensitive as Iraq, which was 
a very divisive issue within the alliance, we still were able 
to craft an agreement of a NATO training mission in Iraq after 
the fact and find something that brought the allies together. 
And I think that would be an important part of this element to 
this narrative that not only does the United States move 
forward with some other allies in concert bilaterally, but 
there is actually a NATO component in which all the allies are 
playing a role in supporting Ukraine, not with arming, but with 
a defense reform and a defense package.
    Your original point I think, however, is right. We are 
obsessed with the issue as the issue of the day. Putin, I 
think, is looking to win right now financially. I think the 
time sensitive part is the collapse of the economy. I think 
that is a real danger right now even as we debate weapons. And 
second, the weapons are effective if we have a strategy, part 
of a broader strategy, where Putin looks up and he realizes 
that we--I mean, we are far stronger across the board.
    You mentioned Serbia, and American strategy that is moving 
on NATO and Montenegro, and actually working to deepen the 
partnership with Serbia to show that we actually pushed back in 
asymmetric ways as well I think helps to fill out a more 
comprehensive strategy, weapons being an essential element of 
that, but not the only element.
    Senator Johnson. Mr. Kasparov.
    Mr. Kasparov. Senator Murphy mentioned Czechoslovakia, 
Hungary, Poland, certain interventions in Eastern Europe. But I 
do not think that we can compare the situation with Ukraine 
because the Soviet Union, as much as I hate this kind of 
action, operated within a sphere of influence agreed to in 
Yalta in 1945, so the world was divided. Today it is totally 
different because we can look at the collapse of the Soviet 
Union or the collapse of Yugoslavia, all new states. Even 
Yugoslavia has 7 new states, including Kosovo. They were all 
formed within the territory of administrative borders created 
within the empire. So all of them, whether they are right or 
wrong, you know, there was an agreement.
    And if you look at Ukraine, every Russian President, every 
Russian Parliament signed or ratified one or another form of 
treaty or agreement with Ukraine, and Russia never, ever 
expressed any concerns about Ukrainian territorial integrity, 
never raised an issue. Even Saddam Hussein raised an issue on 
Kuwait. Hitler talked about Sudetenland or Danzig. Russia never 
raised this issue, so that is why it is absolutely unique. And 
this attack is unprecedented because it violated not only 
agreements, but also the understanding of how the world would 
be split after the end of the cold war.
    Senator Murphy. I do not disagree. I think that is a very 
good point.
    Thank you, Mr. Chairman.
    Mr. Saakashvili. Senator?
    Senator Murphy. Sure.
    Mr. Saakashvili. Senator, first of all, I need to thank you 
for your intervention on Ukraine. I was there together with 
group of European parliamentarians just before you came. And I 
remember--and then we were proclaimed persona non grata, and 
then your visit, by the way, together with the other U.S. 
colleagues, really changed the equation that came at right 
moment because they were really losing steam, you know. They 
had this little bit of frustration were being abandoned. And 
you being there, it really changed the whole idea of what the 
Ukrainian revolution was about, and it made it very much value-
oriented.
    Now, there is another story there which is not only just 
weapons story in Ukraine, bit about United States involvement. 
It is a good story. And it also has to do something with my 
country because what happened in Ukraine that Georgia--that 
some members of my government became members of Ukrainian 
Government. That is also very unique experience. Our Minister 
of Interior has become their first Deputy Minister of Interior 
of Ukraine, and she is running the reform of Ukraine with the 
United States, with USAID.
    They fired the entire Kiev traffic police, and they go city 
by city. And this is American money. This lady is Georgian, and 
they are together creating new Ukrainian police that will show 
how to work and operate without bribes. That had never happened 
before in that part of the world, or at least in Ukraine.
    Then there is another story. We have our Deputy Minister of 
Justice from Georgia there who is working also with your 
programs and also, by the way, with U.S. Congress funded NGOs 
that are doing tremendous job in the regulation, you know. 
Their bureaucracies like something that unimaginable in terms 
of, you know, discretion of bureaucrats and, you know, how they 
do this corruption thing. This is, again, the Americans doing 
that together with that.
    We have Minister of Health who just had long conference 
together with American donors and U.S. Ambassadors involved 
there on the spot. And they are doing now absolute new 
transparent procedures, how to do these tenders and things 
which never also happened in Ukraine. It was a major source of 
corruption traditionally. We have deputy attorney general for 
Ukraine, which is Georgian, foreign deputy attorney general of 
Ukraine. And now we are bringing--we invited U.S. experts to 
sit down together with them because they are working high 
profile criminal cases. And, again, there is the anticorruption 
bureau will be created where also there be activity for U.S. 
expert participation.
    So it is not only about weapons. I think long term 
Ukraine's survival and Ukraine's strategy should be based on 
the idea that they have something else to offer besides 
military things. But this should all be just be packed up with 
something else as well. Thank you.
    Dr. Blank. I would like just to make two points very 
quickly. The discussion about weapons is insufficient in the 
sense that weapons, to realize their maximum benefit for 
Ukraine, have to be sent urgently, but as part of a broader 
strategy to rebuild the Ukrainian Government and economy, which 
is also an urgent issue, and as an information strategy. I 
mentioned in my paper no one is talking about the number of 
casualties the Russians are taking, which are huge. We are 
doing nothing informationally to counter the wave of 
propaganda.
    Furthermore, to the extent that the United States leads the 
Atlantic alliance, not only will NATO members follow, or at 
least accept what we are doing, we will have also changed the 
balance of fear because right now the Russians are not afraid 
of anything that Europe might do. As President Saakashvili has 
pointed out, when the Russians understand that if they go 
further they encounter United States directly, they stop. They 
even on occasion retreat.
    And finally, we have done this before. Let me remind you 
about Afghanistan where we gave very sophisticated weapons to 
people directly in the line of Soviet aggression, and it 
worked. This is not the Soviet Union. This is an army that 
cannot stand the protracted war or take that kind of risk, and, 
therefore, providing weapons will, I think, help stabilize and 
perhaps even turn the situation around if it is backed up by a 
coherent strategy.
    Senator Johnson. Senator Kaine. Thanks for your patience.
    Senator Kaine. Absolutely. It has all been educational, and 
thank you, Mr. Chairman, and thanks to all the witnesses.
    Three topics. First on the sanctions and economic effect on 
Russia right now, it sounds as if one of the takeaways from 
today should be work that we need to do with Europe to make 
sure the annual re-up of the sanctions, you know, the 
continuity has got to be our message, our very strong message 
to the Europeans. And I gather that everybody is on board with 
that. We need to do more on our side. The President did more 
today, and there is more that Congress can do.
    But I am particularly interested in the low cost of oil as 
a perennial problem for the Russian economy. And it is not just 
a problem for the Russian economy. It is also a problem for the 
Iranian economy, which is a separate topic. That is a very 
important issue for us now.
    What are other things we can do in the energy space, 
whether it is sanctions or whether it is assisting European 
nations with energy technologies? We have had a fairly 
contentious debate on this committee about things like LNG 
exports, even to send the signal that that would be something 
we would contemplate into the region to help nations break 
their need to rely too much on energy. Talk a little bit about 
low energy costs and what we ought to be doing to continue to 
pressure the Russian economy using that as a strategy, please, 
Dr. Blank.
    Dr. Blank. There are a number of things we can be doing. We 
can increase the export of oil and of LNG, which would require, 
of course, building infrastructure here, as well as amending 
legislation. But oil can be already sent. It was reported last 
year that we could send 40 million barrels a day for 6 months 
without undermining the statute or without reversing the 
meaning of the statute, guaranteeing the strategic petroleum 
reserve. We could probably still do that. We can further 
encourage much more strongly the building of the southern 
corridor of gas across the Caspian Sea and provide strong 
guarantees to countries like Azerbaijan, Turkmenistan, and so 
on, that want to make that happen.
    And third, to promote not only the building of 
interconnectors within Europe so that new terminals that are 
being built in Northern Europe and the Baltic can then move gas 
to the south, but also if we pass the TTIP, that makes every 
European signatory of the treaty eligible to receive gas 
exports from the United States on an expedited basis without 
going through the very convoluted bureaucratic procedure. Once 
that law is in place, they can then get gas from the United 
States, and we can supplant a fair amount of the Russian gas 
exports, which is what Russia uses for political purposes.
    The problem is not Russia exports gas and oil to Europe. 
The problem is that they can do so and use that for political 
purposes. If it becomes a straight commercial transaction, well 
and good. But to the extent that they have politicized this, we 
need to take that weapon away from them.
    Senator Kaine. Other thoughts on the energy space?
    Ambassador Pifer. Yes. I would just, Senator, just add on 
the LNG. My understanding is that the United States is now 
building to the point where by about 2020 we could export 
between $100 and $120 billion cubic meters of gas per year, 
which would be, I think, a sizable increase in gas stocks. 
Right now, my understanding is in most of Europe now, they 
actually have significant capacity to import LNG. They have, in 
fact, remained reliant on the Russians because the Russian gas 
in the pipeline is cheaper.
    Senator Kaine. Right.
    Ambassador Pifer. But what we want to make sure is that 
Europe has the capacity that if the Russians were ever to turn 
the gas off, which I do not think is likely, and I will get 
back to that in a moment. But that they, in fact, could 
continue receiving LNG, and it gets to Dr. Blank's points about 
building interconnectors, which are now pretty good in most of 
Europe, but there are still areas--Romania, Bulgaria, Greece--
that are still vulnerable until they get some more 
interconnectors that would allow gas to move from the West to 
the East.
    I think, though, at the end of the day, it is hard for me 
to see the Russians, Gazprom, ever turning that gas off. It is 
almost--it is a mutual deterrent relationship in that Europe 
needs the gas, so they want the cheaper Russian gas because it 
is cheaper than LNG. But if Gazprom turns that gas off, it is a 
huge hole in the Russian budget because they use that large 
amount of money that they make by exporting the gas to Europe.
    I saw figures, and these are maybe about 4 years out of 
date, where about 25 percent of Gazprom exports went to Europe, 
but that accounted for about 70 percent of Gazprom revenues. So 
Gazprom has a big incentive not to do this, but it still makes 
sense for Europe to have a plan B in case the Russians ever 
reach that point where they micht cut off the gas flow.
    Senator Kaine. Mr. Kasparov, I wanted to ask you a 
question. You want to comment on that before I ask you the 
question?
    Mr. Kasparov. Yes. It was said here numerous times about 
the importance of keeping sanctions or even, you know, 
increasing the sanctions. And, of course, that problem is in 
Europe. But sanctions, apart from economic effect, they have 
psychological effect, and so far Putin has succeeded in 
convincing not only the Russian republic, but the Russian 
elite, that these sanctions will not stand. So somehow, you 
know--and he has enough friends, you know. Let us not forget, 
Czech Republic, President Zeman, has been financed by Lukoil 
openly. Open. Now, it is probably Russian subsidies. Greeks, 
you know.
    You can look around Europe and you will find so many traces 
of Putin's actions, you know, and lobbying efforts that are 
unfortunately quite successful. But it is very important, you 
know, that Putin could point out multinational corporations 
that are still operating, and in that sense, you know, a signal 
of confidence. Just 2 days ago, Exxon-Mobil has announced about 
expansion of its operations in Russia. I mean, that is a 
fundamental, you know, argument for Putin--okay, Obama, 
Presidents, you know, Prime Ministers, the business is still 
here.
    And as long as we have this presence in Russia, as long as 
we have business as usual, it will be very difficult to win the 
psychological war because expectations could actually destroy 
the Russian economy even sooner than economic----
    Senator Kaine. I agree with you. I think there is a 
psychological impact. And even if you knew LNG would not get 
there for 2 years, you start to do things that sends a message, 
and similarly with energy sanctions. I am a big supporter of 
sanctions in the energy space. That is the lever that is being 
used. That is where we ought to sanction.
    Mr. Kasparov, I wanted to switch to another topic, which 
is, you know, we tend to look at these things through the eyes 
of political people. From your experience, what will it take? 
What are the kinds of conditions that will cause Vladimir Putin 
to lose political support within his electorate, within Russian 
citizens, because there is outside pressure, but the most 
effective pressure is often the inside pressure when the 
population starts to pull their support from you.
    You talked about the propaganda regime, et cetera, makes it 
difficult for the message to get through. But from your 
experience, what will cause a decrease in the domestic 
political support for Vladimir Putin?
    Mr. Kasparov. Unfortunately, I do not see sort of a 
positive outcome in the near future. Vladimir Putin is not 
going to lose his powers through the normal election process, 
so he is there. He is a dictator, and he made it very clear 
that he would not leave the office. The good thing is that, you 
know, a country so hyper-centralized as Russia does not have 
much political activities outside of the capital. So basically 
even if he enjoys this 80 percent plus support, which I do not 
believe, across the country, what matters is Moscow, and we 
know that numbers in Moscow are very different.
    Even St. Petersburg, today has turned into some form of 
political province. Whatever happens in Moscow could determine 
the future of Russia. And we have a pretty sizable middle class 
in Russia that is used to a relatively comfortable life. They 
travel abroad, and I do not think this middle class will accept 
sort of long-term decline of the standards that have been 
established.
    For quite a while--for many years actually--this middle 
class has been relatively silent. So we saw some of the 
protests in the 2011, 2012. People did not like what has 
happened with the elections, but, again, it was not powerful 
enough. The coalition was not there because the ruling elite 
believed that that it was better to stay with Putin than to 
join the protests.
    What will change everything is that if people in the ruling 
elite, some in the inner circle, and, of course, the Russian 
middle class. They all recognize that Russia will have no 
future with Vladimir Putin. Stop appealing to Putin. He is 
irrelevant because he burned all the bridges. You have to look 
for people who can end his rule with minimum bloodshed. And I 
think it is--as long as Putin stays in office, we will see more 
political assassinations, more attacks on neighboring countries 
because that is the only algorithm where he can survive. I 
think that America has many ways of demonstrating it, and 
talking about European Union is exactly the opposite, you know.
    Putin gained so much influence in Europe because America 
walked away, so only American reappearance there will send a 
signal because everybody wants to see leadership. And I know 
Baltic States well. Forget Germany. I mean, remember in 2003, 
it was rumored that someone in the Bush administration, 
summarized the policy at the time as, ``Punish France, Ignore 
Germany, and Forgive Russia.'' So basically ignore Germany, 
because Angela Merkel is the head of the coalition government, 
and her Foreign Minister belongs to Gerhard Schroeder's party. 
So expecting from this fragile coalition government to lead 
Europe is wrong.
    So that is why America's presence is paramount. Without it, 
nothing will happen. And it will send signal not only to 
Ukraine, not only to Poles, but also to Russian people that, 
you know, America is back to business.
    Senator Kaine. Okay, Mr. Chairman, if others wanted to 
weigh in on that question. I do not have any other questions, 
but I would love to hear their responses.
    Senator Johnson. Mr. Blank.
    Dr. Blank. Yes, in response to your last question, 
undermining Putin's domestic base of support is a long-term 
operation. But it requires the systematic application of a 
strategy to tell the truth, to use the information capabilities 
that we have for maximum strategic effect, and broadcast to the 
Russian people just how bad the situation is inside Russia and 
where Putin is leading them. And that will in time do so.
    Furthermore, as Mr. Kasparov said, it is essential for the 
United States not only to lead in Europe, but to stop showing 
fear and disengagement. And this will also have an encouraging 
effect upon Europe as well. Third, we have to remember, if we 
look at Russian history, that it is always the case that when 
the Russian Government enters into a protracted war which it 
cannot win, that creates domestic unrest at home. Therefore, 
sending the weapons and making sure that the Ukrainian economy 
and government survive is not only desirable as an urgent 
remedy right now to impose costs on the war, but it transforms 
not only the balance of fear in Europe and Ukraine, it 
transforms the strategic calculations inside Russia because 
then you create the pressures that have historically worked to 
undermine this kind of government.
    Senator Johnson. Ambassador Pifer.
    Ambassador Pifer. Thank you, sir. I would like to just make 
two points, one on sanctions. I would go back to the logic of 
the sanctions and go back to something that was being said 
about Russia and Vladimir Putin maybe in 2003, 2004 where 
Russians talked about President Putin having an implicit social 
compact with the Russian people, in which he says you are not 
going to have any political say, but in return, you will have 
economic security, rising living standards. You are going to 
see the economy do well. Sanctions make it more difficult for 
Mr. Putin to deliver on his part of that bargain, and that, I 
think, may have an impact on how the Russian people look at 
him.
    The second point just briefly, I would give a little bit 
more charitable analysis of Germany. I think actually 
Chancellor Merkel has been remarkably successful in pulling 
together the European Union, 28 diverse states with very 
different views. And for her, at least what I hear from German 
diplomats, at core, it is a principle. She really takes to 
heart the idea that borders are inviolable, and that countries 
should not use force to change those borders.
    So with her taking that role, I think at some political 
risk because this is not easy either internally or also dealing 
with the Russians. But she has played a very good role, and it 
makes a lot of sense for the United States to be working very 
closely with her in that role to sustain the sort of unity that 
we have built with Europe over the last year.
    Senator Kaine. Mr. President.
    Mr. Saakashvili. Yes. With regards to Russia, I mean, it is 
very clear that, first of all, the idea of this hearing 
obviously is what will happen next. And I can tell you, I met 
with Putin dozens of times. He always told me three things 
consistently, that he was menacing us with invasion, he will 
always mention that Ukraine is not a real country, it is just a 
territory, and, third, he always said that Baltic countries are 
not defendable. He always says beforehand what he wants. People 
have heard it.
    And it is very clear that what--if he gets away with 
Ukraine, then Baltic countries, which do not have even 
strategic depth or manpower of Ukrainians, they just rely on 
United States Article 5 guarantees, which is important stuff. 
But still, I mean, there are many vulnerabilities that they 
have, even more than the Ukrainians ever had. That is very 
clear that he will continue on because that is the only way how 
he sees he can maintain power inside Russia.
    Now, when we talk about his 80 percent rating, we should 
realize that this is a fear rating. This is not real in 
population. People tend to measure it with measurements of 
democracies, and that does not work this way in these kind of 
systems. You know, I think North Korean leader has even higher 
ratings. It does not mean that, you know.
    So what it means is that basically people have been saying, 
well, Russians cannot stand just any sanctions, you know, that 
is the history of Russia. I think this is not true simply 
because Russia has never had such a strong middle class. This 
is combination first of the United States assistance, bailing 
out the Russian economy in the 1990s, which really was the 
decisive factor, and then, of course, the oil price and 
redistributing it inside Russia.
    This middle class has always lived with expanded living 
standards. They are not used to living with a decline in living 
standards. Nobody has seen them. So it makes Putin panic. It 
makes Putin make mistakes and to become more aggressive. And I 
think shale gas--generally U.S. shale gas--is the single most 
important factor in what has brought him into this panic mode.
    What United States did with its legal system, which does 
not happen in Europe, is that in Europe you can, you know, 
manipulate some environmental groups and others, block local 
shale production because whatever is underground basically 
belongs to the state. Here it belongs to the person who owns 
the land. And that makes the U.S. system so much more open to 
this kind of entrepreneurial enterprise. So that really changed 
the whole logic of the event. Suddenly, good guys have energy 
and bad guys have lower money for their energy. So from that 
standpoint, it is absolutely deciding factor.
    I think that it is not--it is a matter of not many years 
that a thing has emerged, there is a physical fatigue. Every 
leader, even the most autocratic one, has his time span. I 
think Chinese have been smarter with that. They have been 
changing the faces of their leaders, and they have a more 
flexible system here. This is a one-man show. You know, 
everything--there is no other political actor. He played around 
a little bit with other ideas. Gone. Now, it is him. All credit 
is taken by him. Every blame goes to him. And that is a very 
dangerous system for no matter which politician. From that 
standpoint, I am very optimistic.
    The Russian people are well-read people, they are well-
traveled people. They certainly want to be respected 
internationally, although until now they had it both ways. They 
were getting away with playing around in the neighborhood. They 
were being nasty. And at the time, they still kept some kind of 
resemblance of respect. Now, those two are not compatible, and 
people will understand it.
    And, again, going back, I fully agree with Steven. The 
Afghan syndrome is very important. When I was in the Soviet 
Union, I remember what the combination of low oil prices and 
MANPADS did. Until low prices, it would not have worked, but 
now you have the lower prices suddenly, so budgetary income 
went down, and then MANPADS reversed the logic on the ground. 
That is exactly what we have now. We have lower oil and gas 
prices, and we just need some Javelins, or whatever the 
Ukrainians will be requesting, to change the cost of that 
equation. After all, cost equation matters, maybe even not for 
Putin, but for the Russians or the Russian public, whatever 
elite is left there, security apparatus, it will certainly make 
lots of difference, and that is my main hope. Thank you.
    Senator Kaine. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Kaine. I would like to 
go back to the story. I would like somebody to talk to the 
courage of the Ukrainian people. Senator Murphy talked about 
being in the Maidan. I was heartened, I was encouraged by my 
colleagues here in the Senate and the House unanimously passing 
the Ukraine Freedom Support Act, which did authorize lethal 
defense weaponry for the courageous people of Ukraine. The 
reason I think we did that is because so many of us went over 
there. I was with Senator Murphy with a bipartisan delegation, 
about eight U.S. Senators, and we walked the Maidan. We heard 
the story of the sniper attack.
    I would like to hear the story of the rebellion, the 
pushback from the Ukrainian military that had been hollowed out 
purposefully, but also the courage of the Ukrainian people 
defending themselves, turning the tide, and then having that 
tide turned back against them because of Russian involvement, 
the Russia's invasion with 14,000 to 20,000 troops and heavy 
weapons. I want to enter those pictures into the record.


    [The photographs referred to by Senator Johnson are located 
at the end of this hearing transcript, beginning on page 59.]


    Senator Johnson. I want somebody to speak to that--somebody 
to answer the question--to answer the plea of President 
Poroshenko when he came before a joint session of this Congress 
and said that blankets and night vision goggles are important, 
he said, but one cannot win a war with blankets.
    Can somebody here just talk about what has happened in the 
military campaign against the rebels, how the tide had turned, 
how it had been turned back again, and then how desperate the 
situation is? One of the reasons I held this hearing this week, 
kind of rushed it, is because we heard last week that there was 
potentially an offensive being planned within the next few 
weeks. We heard that earlier, potentially a spring offensive.
    Can somebody just talk about the history of this military 
conflict, this rebellion, what will likely happen and how 
desperate the situation is?
    Dr. Blank. Well, I can try to answer as much as possible 
that question. The Russians have been behind the attempt to 
squelch the revolution from the beginning, even when it was 
just simply a demonstration on the Maidan. We know that Russian 
advisors were telling Yanukovych's government to repress them 
and use force if necessary. We also have good reason to 
believe--I was told this by Ukrainian politicians in October 
2013 when the issue was signing the association agreement with 
the European Union, which led to the revolution, that Putin 
threatened Ukrainian with invasion then if they signed. And 
there were analysts in this town, myself among them, who warned 
at that point that Putin was doing that. We were disregarded.
    The fact of the matter is that the Ukrainian people have 
sacrificed what the Declaration of Independence calls their 
lives, their fortunes, and their sacred honor--their sacred 
honor, to live freely and independently, and to make it clear 
that they wanted a better life, which meant that an association 
with Europe and European forms of government.
    This is intolerable to Moscow for the reasons we talked 
about today. Empire is the only recourse Moscow has to save it 
kleptocratic autocracy. It has become a criminalized regime, a 
state that exports terror, as well as uses it at home, and 
there is no denying that. He has done it in Georgia, he has 
done it at home, and he is doing it in Ukrainian.
    The operation to seize Crimea was started before February 
21. We know this. For example, the medals that the Russian 
President gave out to his troops dates the operation from 
February 20, the day before the EU agreement with Yanukovych. 
Yanukovych then fled that night anyway, but the Russians were 
already active. And the only reason they did not go faster is 
because the troops there were supposed to lead that operation 
in Crimea, were guarding the Olympics in Sochi, which ended 
only February 23.
    This is a cold-blooded premeditated aggression. It caught 
the Ukrainian Government and Army by complete surprise, and as 
a result they lost Crimea. Then they started to use the 
organizational tools they had previously set up in Donetsk and 
Luhansk Cabanas and provinces to agitate there. They took 
advantage of some ill-considered decisions by the new 
government on language policy and created a pretext for an 
invasion in March into April.
    That went forward, but Putin thought he could get away with 
doing that simply by giving the arms and some direction to 
locally organized forces. That proved to be impossible. As a 
matter of fact, they shot down MH317 as we know, and they were 
in danger of losing in August when Putin then had to commit 
Russian regular forces.
    Since then, Putin has had to escalate his commitment and 
basically take over the entire military operation. Now, the 
entire military operation from start to finish was predicated 
on creating on what this new Russia, Novorossiya, a term that 
goes back to Catherine the Great 250 years ago. In fact, it is 
an attempt to destroy Ukraine, create a land bridge from Russia 
all the way across Southern Ukraine and Crimea to Transnistria, 
and project Russian power not only through Ukraine, but into 
the Balkans and Black Sea and beyond. Moscow has even sought 
military and naval bases in Greece, Montenegro, and Serbia.
    It is, I believe, using this truce to replenish its forces. 
The amount of ammunition that the Russians have expended 
because their tactics are essentially basically artillery 
pounding, has been enormous. And they are surprised, according 
to my sources, at how much they had to use in August and now 
again in January to achieve their objectives. Therefore, they 
have to call a halt, they signed onto Minsk, and are trying to 
get a truce so they can replenish. But I have no doubt that 
come springtime they will make a move on, if not earlier, on 
Mariupol and the entire Black Sea coast of Ukraine, and perhaps 
all the way through Odessa as well.
    So, therefore, that is a kind of survey of the entire 
military operation from start to finish. But the start was not 
February 2014. The start is 2005 when the first attempt by 
Moscow to seize Ukraine failed in 2004.
    Senator Johnson. Anybody else just want to speak to the 
courage of the Ukrainian people and why they need to be 
supported?
    Mr. Saakashvili. Well, I want to speak about a pilot, Nadia 
Savchenko, who was kidnapped and is being held. She is a 
military pilot, was active participant of the Maidan protests. 
And she was kidnapped from the Ukrainian territory, brought to 
Russia. She is now held in Moscow. And she is in grave medical 
condition because she has been going through a hunger strike. 
And, you know, there are many Ukrainians like that that 
sacrifice their lives.
    The remarkable story of Ukraine is not just heroism on the 
battlefield, which was very obvious. You know, these are the 
troops that were technological, that for 10 years or so they 
were just plundering everything, giving up everything for legal 
means, but also illegal means. There was lots of corruption 
while Russia was building up things. So that reality came into 
being totally. They were taken by surprise, unprepared, 
untrained, and still, against all the odds, were holding out 
for a long time against Russian forces and are continuing to do 
so.
    Now, the important thing to understand there is another 
aspect to this fight. Most of these efforts of the Ukrainian 
army have been done also by volunteers, supplying the troops, 
medical supplies, even military supplies and the bulletproof 
vests, you know, there have been thousands and tens of 
thousands. And in the case of money, millions of Ukrainians 
contributed. It is not just war of Putin versus Poroshenko or, 
you know, it is against the Ukrainian Government. It is Putin's 
war against the multiethnic Ukrainian nation.
    The other thing people do not really know here is that most 
of the troops fighting and protecting Ukraine are Russian 
speakers, and basically big part of them are ethnic Russians. 
This is not an ethnic issue. This is not, you know--this is not 
a regional issue. This is not, as I said, government-to-
government issue. This is the multiethnic, multicultural nation 
of Ukraine trying to defend its freedom, its values, and its 
ideals. And the whole society's part of it, because as I said, 
the government was almost bankrupt, and you had people 
volunteering and basically supplying most of the things they 
are getting there.
    And I do not know any other country in the world where this 
number of volunteers, so large a part for the population has 
been engaged in what is an all-around national campaign for the 
nation's survival. And that is something to be considered for 
all of us because, you know, again, as I said, I told you about 
Georgia volunteers fighting there. Basically most of them, you 
know, they are not there for money. They are not paid anything, 
but whatever they are supplied with, these are given by 
ordinary Ukrainians. This is not the government that gives them 
that.
    Senator Johnson. I will let everybody else summarize. I 
want to be respectful of Senator Shaheen. She has a question, 
and then I will let everybody wrap up and give my final 
thoughts.
    Senator Shaheen. Thank you very much, Mr. Chairman. I 
wanted to go back to the economic concerns because one of you I 
think--I am not sure who--suggested that support for weapons 
may be moot if the economy fails in Ukraine before that 
happens. And I know that the IMF has pledged funding as has the 
EU and the United States, of course.
    But to what extent can the Ukrainian economy, and President 
Poroshenko, and the government survive the reforms that are 
being asked of it, and keep the economy afloat, and continue 
this military conflict at the same time? And what more can the 
United States do to help with that? Damon, do you want to 
start?
    Mr. Wilson. Senator, I think that is exactly one of my key 
concerns right now is that there may be a rationale for the 
military fighting to die down. Putin does not need to own two 
slices of Donetsk and Luhansk. He needs all of Ukraine. And I 
think part of the strategy that I am most concerned about right 
now is which economy collapses first, and can he raise 
Ukraine--can he push Ukraine's off the cliff first.
    This is why I have been, on the one hand, alarmed at how 
long and difficult it has been to get a significant 
international package together that includes the U.S.'s 
catalytic, but the IMF and the EU will add more. And at the 
same time, we are asking Ukrainians to do some quite difficult 
reforms. I think this is the moment.
    President Poroshenko and Prime Minister Yatsenyuk, they 
understand that they have had predecessors that had an 
opportunity to build a new Ukraine, and they failed at the time 
of independence, at the time of the Orange Revolution. They do 
not have many other shots at it. And so, despite the 
difficulty, I think being able to communicate to the Ukrainian 
people that in this time of existential crisis is when they 
need to take some pretty dramatic steps. And we just saw the 
Rada pass very significant legislation which will begin to 
raise overall energy prices and begin to address some 
structural economic issues.
    But the gap there I think is a much more robust and much 
more decisive intervention on the part of the international 
community providing that economic assistance and providing that 
comfort because this is the race that I think--Putin can let it 
sit for a while, allow his little project Sparta to build up 
its weapons, and try to go for all of the Ukraine by driving 
down the economy, after all, trying to drive the collapse of 
this government.
    Senator Shaheen. Anyone else want to comment on that? 
Ambassador Pifer and then Dr. Blank.
    Ambassador Pifer. Yes, Senator. No, I think this is why we 
need to talk about a multipronged strategy. I mean, it is has 
got to be not just providing arms. It has also got to be 
maintaining sanctions. It has also got to be doing the economic 
finance, which I think will be costly. The IMF program, as I 
understand it, is for $17.5 billion over 4 years. I have heard 
some economists suggest that in 2015 and 2016, above and beyond 
that Ukraine could need an additional $20 to $22 billion.
    If we provide all the weapons in the world, and they hold 
the Russians off, and they stabilize line of contact, and the 
economy collapses, the West has lost its policy goal. Likewise, 
if we make the economy work, if we get them through the 
reforms, but then they have the military collapse, that is a 
loss. We have got to be doing both these pieces at the same 
time. And I think we have to face up to it. It will require 
probably an injection of serious resources both by Europe and 
the United States.
    Senator Shaheen. Thank you.
    Dr. Blank.
    Dr. Blank. I would add to that, that while everything my 
colleagues have said I agree with, that what is critical here 
as well I think is the psychological dimension. We are asking 
Ukrainians to do something of an extraordinarily difficult 
nature, and they have not the sense that we stand behind them. 
On the other hand, if they were aware and understood that they 
had the full support of the United States and of Europe, and 
that they were not alone, that would provide an enormous 
psychological strength and reinforce other European states' 
ability and willingness to help them. And it would undermine a 
great deal of Russia's strategy.
    Therefore, all these factors come together--the provision 
of weapons and training, the economic and political assistance, 
and the overwhelming psychological assurance that you are not 
alone.
    Senator Shaheen. I certainly agree with that. We have sent 
mixed signals, and I would hope that Ukraine would know that we 
are behind them 100 percent. I do hope that this Congress can 
pass the reforms to the IMF, too, because that would allow us 
additional assistance as we are looking where can we provide 
economic assistance to Ukraine.
    President Saakashvili.
    Mr. Saakashvili. Well, I have just to add that besides $17 
billion, overall pledge is $40 billion for the reform package. 
It is very important United States--we are trying to now 
jumpstart the reforms, but it is very important also this 
committee and generally overall the U.S. Congress pays greater 
attention. We need more CODELs coming, and specifically not 
only with a focus on military issue, which is urgent issue 
because it has become tantamount to the symbol of whether 
Ukraine is abandoned or not, but it is beyond that. What is 
really needed is real crackdown on corruption, real economic 
changes, really for ordinary Ukrainians to see the difference.
    And from that standpoint, from our own experience in 
Georgia, the United States standing by the idea of reform, we 
are steering in right direction, you know, giving incentives, 
giving praise when necessary and sometimes offering friendly 
criticism when it is also necessary. It is absolutely key for 
reforms inside Ukraine to know what has been there for decades, 
invested interests, you know, of plundering and basically 
robbing that is potentially a very rich nation with very smart 
people and very talented people.
    And I think this is the best Parliament they ever had right 
now. It is more clean of any previous legislatures, so it is 
very easy to work through these parliamentarians. Many of them 
are quite inexperienced, so they need to be introduced also to 
the U.S. system. You need to bring them here as well. You need 
to get know them--get to know them, you know.
    And I think there is--that reminds of what--we were like 
this in mid-1990s. And I remember our first--I was 
parliamentarian back in 1996, fresh from GW law school here. 
And I remember coming back every time, every 3, 4, 5, 6 months 
together with a bunch of younger parliamentarians, not just to 
talk to you or ask for help, but to learn, to get educated, you 
know, and exchange ideas. That was absolutely the single 
strongest factor behind Georgian democracy, somehow getting 
stronger and also communication with people. And I think 
Ukrainians see this more than ever. And I think you are all 
here deciding--I think this hearing also has a key role to play 
for that.
    Senator Shaheen. Well, thank you all very much for your 
compelling testimony and for your continued focus on Ukraine. 
And thank you, Mr. Chairman, for this hearing.
    Senator Johnson. Thank you, and I want to thank all of my 
colleagues for attending. I will just give everybody a chance 
to quickly wrap up. We will go in reverse order. We will start 
with Ambassador Pifer. If there is something that you have not 
been able to get out, please say it.
    Ambassador Pifer. Thank you, Senator. I guess I would come 
back to one point about how far the Russians want to go. And 
although I do not exclude that the Russians might try to go all 
the way to Crimea to create the land bridge, I worry a little 
bit less about that than I think Dr. Blank does. It has been 
interesting that in the last 5 or 6 months, I do not think 
Vladimir Putin has mentioned the term ``Novorossiya'' once. And 
what I hope that means is he understands that the further West 
the Russians go, the more they are going to encounter a hostile 
population and the possibility of partisan warfare. Having said 
that, I still think the Russians have a lot of possibilities 
just fighting along the current line without a major offensive 
to distract and destabilize the government in Kiev, and that 
may be their cheaper option.
    My final point would be whether we are concerned more about 
the big option of going to Crimea or just having more of a not 
so frozen conflict along the line of conflict. Providing 
weapons in the context of sanctions and economic assistance to 
Ukraine is a way to challenge or to change that calculation in 
Moscow, and hopefully bring the Russians to conclude that 
fighting no longer is worthwhile, and that they have to find a 
way to finally take that diplomatic off ramp.
    Senator Johnson. Thank you, Mr. Ambassador. Mr. Wilson, one 
final thought?
    Mr. Wilson. Senator, I wanted to go back to your last 
statement because I think it was one of the most important 
things here about the Ukrainian people. I think that is one of 
the most factors that outside actors actually under appreciate. 
Ukraine is the victim of the tyranny of low expectations. 
President Putin could not imagine that the Ukrainian people 
could rise up and determine their future. They were skeptical 
of the fact that the Ukrainians would even have a common 
national identity. And the irony of his invasion of Ukraine has 
more to consolidate and strengthen that sense of identity and 
purpose than any single thing. If we play this right, this is 
actually a 500-year defeat for Russia to have actually lost a 
country like Ukraine, which is a natural partner, a natural 
neighbor, and decisively having turned that country to the 
West.
    And yet the West also has a tyranny of low expectations 
toward Ukraine. If you talk to our Treasury officials, IMF 
officials, they are skeptical that Ukraine is a good 
investment. We have seen this fail before. If you talk to 
realists, they think, well, we can just cut a deal over the 
Ukrainian people's heads, that this country will never go to 
NATO. I do not think that works any more. That is not--
President Poroshenko himself has now real constraints. I was 
there when protestors were outside his office because he was 
willing to agree to a cease-fire. The Ukrainian people now have 
a say in the future of what is going to happen, and I think 
outsiders underestimate that factor that the Maidan was 
genuine, and it is what drove this from the beginning.
    So I would just conclude with, we should remember how all 
of this started, that Ukrainians were actually willing to die 
for this concept of Europe, for a Europe which is at best 
skeptical about even wanting Ukraine as part of the European 
Union. And so, that leads me back to where we fit into this.
    The entire chapter of integration in Europe has been driven 
by U.S. leadership, it is European integration, driven by the 
United States, being a great European power, providing the 
framework and helping that happen. If we stand back and think 
of ourselves as an observer as this unfolds, as an observer of 
what Europe and Ukraine will do together, I think this will 
fail. But if we see ourselves as a driver of helping to support 
the European aspirations of Ukraine, I think we can get this 
right.
    Senator Johnson. Thank you. President Obama said we are the 
indispensable Nation. In addition to looking to Europe, the 
other aspiration really was a corruption free Ukraine. It is a 
combination of both of those elements that created that 
courage.
    Dr. Blank.
    Dr. Blank. Thank you, Senator. I just want to leave the 
committee with the thought that on March 12, 1947, President 
Truman stood in the Capitol and said that it was the policy of 
the United States to support free peoples. And at that time, he 
was responding to a Soviet challenge in the Black Sea, Greece 
and Turkey, in particular.
    That mission has not changed, and as Damon has said, if we 
are to see a Europe that is whole and free, we must help lead 
the process. We cannot be disengaged or lead from behind 
because then we just open up Europe to the ancient horrors that 
we now see taking over, of autocratic warlike criminal 
governments seizing territories at their whim.
    The people of Ukraine have shed their own blood in order 
get their freedom. As I mentioned, they have pledged their 
sacred honor, their fortunes, and their lives, and we can do no 
less. Thank you.
    Senator Johnson. Thank you, Doctor.
    Mr. Kasparov.
    Mr. Kasparov. Yes. I think we should pay attention to 
Putin's propaganda machine, and it is a fact that we could see 
and hear in Europe and in the United States. Many people 
believe, as President Saakashvili mentioned, that it is an 
ethnic conflict. There were over 23 years of existence of 
independent Ukraine, maybe with the exception of Crimea when it 
was a rogue political group that made 4 percent of the 
elections.
    Ukraine did not have any political movement for secession 
unlike Catalonia or Scotland. So those are examples that the 
Russian Government wants to bring in, or Kosovo. There was 
always a movement, even Ireland you had, you know, terrorist 
groups, but also the political wing. So there were political 
movements demanding independence. We never heard of the 
existence of such groups in Ukraine. So that is why when I read 
in the Minsk agreement about the political settlement, I still 
do not understand who is going to settle on the opposite side, 
the gangs supported by Putin because political groups in 
Eastern Ukraine never created a core entity that specifically 
asked for independence.
    And, of course, it is important to mention that most of the 
people fighting in East Ukraine, they are Russians on both 
sides, ethnic Russians. And as Ambassador Pifer mentioned, the 
term, Novorossiya, has disappeared completely because Putin 
realized that his grandiose plan of bringing eight Ukrainian 
regions all the way down from Luhansk from Odessa to have the 
corridor to both Crimea and Moldova failed because ethnic 
Russians did not want to embrace Russian troops. Moreover, he 
could experience resistance even in Donetsk and Luhansk, so not 
mentioning, you know, further south and west to Dnipropetrovsk 
or Harikov.
    So it is a war that has an aggressor who is trying to use 
this ethnic card, but we have to reveal the true nature of the 
conflict. A Ukrainian nation has been formed, and this is a 
nation that wants to be in Europe, and it is a multi-ethnic 
community. Russian has been widely spoken there. If I 
understand correctly, more channels in Ukraine are using 
Russian than Ukraine or major TV talk shows in Ukraine that are 
run by journalists who have Russian as their first language. So 
this Putin propaganda machine should be confronted with a 
strong message that we are not going to buy these arguments, 
which unfortunately are still being bought by Europeans.
    And summarizing this. We talked about, you know, the 
sanctions and about actions of Western governments vis-a-vis 
the commercial or economic interests of Putin's Russia. But let 
us not forget about the damage made by Russian propaganda 
called Russian Roulette. It spreads lies to millions and 
millions of homes around the world, and it is not a normal TV 
station. It is a propaganda tool, well built, you know, well 
paid. And as far as I understand, you know, alongside with 
military and interior forces, those are protected items in the 
budget because Putin knows that he needs his propaganda 
machine, and we should confront him on this turf as well. Thank 
you.
    Senator Johnson. We have unilateral desires when it comes 
to providing information and the truth. President Saakashvili, 
any final thoughts?
    Mr. Saakashvili. Yes. Yes. Senator, I wanted to thank you 
for this hearing. We have now live feed to many Ukrainian 
television channels. It is a country of more than 40 million 
people, and I think many of them will be watching what is being 
said in the U.S. Congress and this committee. More than that, 
you know, I mean, in Georgia it is being watched. In Moldova it 
is being watched. In Georgia they have the Saakashvili 
presidential library, and actually after midnight. And I was 
just told by my assistant there is a full hall. They are 
assembled watching it live on television. And that can tell you 
people come and showing up so late at night watching or trying 
to watch this together, what kind of impact these kind events 
have in our part of world.
    And that is one part of it. So the other part of it is that 
Putin never made secret that he is not after Poroshenko or 
after any of this. He is after the United States. He has said 
it publicly many times. He has depicted his confrontation with 
the United States. So even if some elements in the United 
States would not want to be part of it, but from Putin's point 
of view they are, and he is striking at the U.S. interests.
    So from that standpoint, it is very important that with all 
the moral support the people have been getting, especially from 
this building and from your committee and from you personally, 
Senator, they now finally get also the ultimate decisions 
because those decisions are going to make huge--will have 
besides, like very concrete changes on the ground, huge moral 
boosting effect because in these kind of confrontations, it is 
very important, I know it from our experience, to know that you 
are on the right side.
    So, again, thank you, Senator, for being on the right side 
today together with other members of the committee. And thank 
you for all your support, and your impact, and your 
contribution.
    Senator Johnson. Well, again, I want to thank all of the 
witnesses for your time, your thoughtful testimony, as Dr. 
Blank said, for telling the truth, and for just fighting for 
freedom.
    The record will remain open until the close of business on 
March 11, one week from today, for questions for the record.
    Senator Johnson. This hearing is adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Photos of Russia's Invasion Submitted by Senator Ron Johnson


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  [all]
</pre></body></html>
